<html>
<title> - THE NATIONAL SCIENCE FOUNDATION'S FISCAL YEAR 2011 BUDGET REQUEST</title>
<body><pre>[House Hearing, 111 Congress]
[From the U.S. Government Publishing Office]




   THE NATIONAL SCIENCE FOUNDATION'S FISCAL YEAR 2011 BUDGET REQUEST

=======================================================================

                                HEARING

                               BEFORE THE

             SUBCOMMITTEE ON RESEARCH AND SCIENCE EDUCATION

                  COMMITTEE ON SCIENCE AND TECHNOLOGY
                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED ELEVENTH CONGRESS

                             SECOND SESSION

                               __________

                             MARCH 10, 2010

                               __________

                           Serial No. 111-83

                               __________

     Printed for the use of the Committee on Science and Technology


     Available via the World Wide Web: http://www.science.house.gov



                  U.S. GOVERNMENT PRINTING OFFICE
55-841PDF                 WASHINGTON : 2010
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 
20402-0001









                                 ______

                  COMMITTEE ON SCIENCE AND TECHNOLOGY

                   HON. BART GORDON, Tennessee, Chair
JERRY F. COSTELLO, Illinois          RALPH M. HALL, Texas
EDDIE BERNICE JOHNSON, Texas         F. JAMES SENSENBRENNER JR., 
LYNN C. WOOLSEY, California              Wisconsin
DAVID WU, Oregon                     LAMAR S. SMITH, Texas
BRIAN BAIRD, Washington              DANA ROHRABACHER, California
BRAD MILLER, North Carolina          ROSCOE G. BARTLETT, Maryland
DANIEL LIPINSKI, Illinois            VERNON J. EHLERS, Michigan
GABRIELLE GIFFORDS, Arizona          FRANK D. LUCAS, Oklahoma
DONNA F. EDWARDS, Maryland           JUDY BIGGERT, Illinois
MARCIA L. FUDGE, Ohio                W. TODD AKIN, Missouri
BEN R. LUJAN, New Mexico             RANDY NEUGEBAUER, Texas
PAUL D. TONKO, New York              BOB INGLIS, South Carolina
JOHN GARAMENDI, California           MICHAEL T. McCAUL, Texas
STEVEN R. ROTHMAN, New Jersey        MARIO DIAZ-BALART, Florida
JIM MATHESON, Utah                   BRIAN P. BILBRAY, California
LINCOLN DAVIS, Tennessee             ADRIAN SMITH, Nebraska
BEN CHANDLER, Kentucky               PAUL C. BROUN, Georgia
RUSS CARNAHAN, Missouri              PETE OLSON, Texas
BARON P. HILL, Indiana
HARRY E. MITCHELL, Arizona
CHARLES A. WILSON, Ohio
KATHLEEN DAHLKEMPER, Pennsylvania
ALAN GRAYSON, Florida
SUZANNE M. KOSMAS, Florida
GARY C. PETERS, Michigan
VACANCY
                                 ------                                

             Subcommittee on Research and Science Education

                 HON. DANIEL LIPINSKI, Illinois, Chair
EDDIE BERNICE JOHNSON, Texas         VERNON J. EHLERS, Michigan
BRIAN BAIRD, Washington              RANDY NEUGEBAUER, Texas
MARCIA L. FUDGE, Ohio                BOB INGLIS, South Carolina
PAUL D. TONKO, New York              BRIAN P. BILBRAY, California
RUSS CARNAHAN, Missouri                  
VACANCY                                  
BART GORDON, Tennessee               RALPH M. HALL, Texas
               DAHLIA SOKOLOV Subcommittee Staff Director
           MELE WILLIAMS Republican Professional Staff Member
            MARCY GALLO Democratic Professional Staff Member
           BESS CAUGHRAN Democratic Professional Staff Member
                   MOLLY O'ROURKE Research Assistant












                            C O N T E N T S

                             March 10, 2010

                                                                   Page
Witness List.....................................................     2

Hearing Charter..................................................     3

                           Opening Statements

Statement by Representative Daniel Lipinski, Chairman, 
  Subcommittee on Research and Science Education, Committee on 
  Science and Technology, U.S. House of Representatives..........     8
    Written Statement............................................     9

Statement by Representative Vernon J. Ehlers, Minority Ranking 
  Member, Subcommittee on Research and Science Education, 
  Committee on Science and Technology, U.S. House of 
  Representatives................................................    10
    Written Statement............................................    11

Prepared Statement by Representative Eddie Bernice Johnson, 
  Member, Subcommittee on Research and Science Education, 
  Committee on Science and Technology, U.S. House of 
  Representatives................................................    11

                               Witnesses:

Dr. Arden L. Bement, Jr., Director, National Science Foundation
    Oral Statement...............................................    12
    Written Statement............................................    14
    Biography....................................................    22

Dr. Steven C. Beering, Chairman, National Science Board
    Oral Statement...............................................    23
    Written Statement............................................    25
    Biography....................................................    30

 
   THE NATIONAL SCIENCE FOUNDATION'S FISCAL YEAR 2011 BUDGET REQUEST

                              ----------                              


                       WEDNESDAY, MARCH 10, 2010

                  House of Representatives,
     Subcommittee on Research and Science Education
                        Committee on Science and Technology
                                                    Washington, DC.

    The Subcommittee met, pursuant to call, at 10:00 a.m., in 
Room 2318 of the Rayburn House Office Building, Hon. Daniel 
Lipinski [Chairman of the Subcommittee] presiding.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                            hearing charter

                     U.S. HOUSE OF REPRESENTATIVES

                  COMMITTEE ON SCIENCE AND TECHNOLOGY

             SUBCOMMITTEE ON RESEARCH AND SCIENCE EDUCATION

                   The National Science Foundation's

                         FY 2011 Budget Request

                       wednesday, march 10, 2010
                         10:00 a.m.-12:00 p.m.
                   2318 rayburn house office building

1. Purpose

    On Wednesday, March 10, the Subcommittee on Research and Science 
Education of the. House Committee on Science and Technology will hold a 
hearing to examine the priorities in the National Science Foundation's 
FY 2011 budget request. In addition, in preparation for reauthorization 
of the 2007 America COMPETES Act, the Subcommittee will examine core 
activities, initiatives, and policy directions for research, 
infrastructure, education and workforce training at the Foundation.

2. Witnesses

<bullet>  Dr. Arden L. Bement, Jr., Director of the National Science 
Foundation

<bullet>  Dr. Steven C. Beering, Chair of the National Science Board

3. Overarching questions

<bullet>  What is the status of the National Science Foundation's 
efforts to implement the provisions of the 2007 America COMPETES Act? 
Are there programs or requirements that NSF was not able to implement 
as intended? If so, why not?

<bullet>  What are NSF's priorities for K-12 science, technology, 
engineering and mathematics (STEM) education, including its STEM 
teacher training programs? How does the current budget request reflect 
those priorities? What are NSF's plans for the new Transforming 
Undergraduate Education in STEM program? What are NSF's priorities for 
graduate education and training and how does the budget request reflect 
those priorities? How is NSF's mission to broaden participation in STEM 
integrated into the full portfolio of education programs? How does NSF 
evaluate its STEM education and broadening participation programs?

<bullet>  What is NSF's vision for the role of institutions of higher 
education in the development or sustainability of regional or national 
innovation ecosystems that facilitate economic growth through 
commercialization and creation of new businesses? How do the 
Partnerships for Innovation program and other programs at the 
Foundation fit into this vision? How can these programs be designed to 
include diverse types of institutions and address workforce training 
needs at all levels of higher education?

<bullet>  What is NSF's role in helping to maintain research 
infrastructure and instrumentation that enables the most cutting edge 
science and engineering research? By what mechanisms does the 
Foundation support such infrastructure and instrumentation? What 
challenges did NSF face in implementing the Academic Research 
Infrastructure (ARI) program under the 2009 Recovery Act? What is the 
role of the Foundation in supporting mid-size instrumentation that 
falls between instrumentation allowable under the Major Research 
Instrumentation program and major facilities funded under the Major 
Research Equipment and Facilities Construction account?

4. Overview of NSF FY 2011 Budget Request

    The National Science Foundation (NSF) budget request for fiscal 
year (FY) 2011 totals $7.424 billion, $552 million or 8.0 percent more 
than. FY 2010 funding (not including any FY 2010 carryover in the $3.0 
billion included for NSF in the Recovery Act). However, when funding 
for U.S. Coast Guard Icebreakers ($54 million) is counted 
appropriately, the real growth is 7.2 percent. This level of funding 
keeps NSF on a ten-year doubling path. (More detail on the icebreaker 
discrepancy is provided below.)

Research and Related Activities (R&RA)

Overview

    The Administration's budget would provide $6.02 billion for R&RA in 
FY 2011, an increase of $401 million or 7.1 percent over FY 2010 
funding. The largest relative increases went to the Engineering 
Directorate (ENG, +11 percent) and the Computer and Information Science 
and Engineering Directorate (CISE, +10.6 percent). The Geosciences 
Directorate (GEO), which funds atmospheric, earth and ocean sciences, 
including most of NSF's climate change research; and the Biological 
Sciences Directorate (BIO), which funds 68 percent of all non-medical 
academic research in the life sciences, including environmental 
biology, also saw greater than seven percent increases. The Social, 
Behavioral and Economic Sciences Directorate (SBE) received a 5.3 
percent increase, and the Mathematical and Physical Sciences 
Directorate (MPS), the largest by far at NSF with a proposed budget of 
$1.41 billion in FY 2011, received a 4.3 percent increase from FY 2010.

Innovation at NSF

    The Administration's R&RA priorities for FY 2011 include a 
significant increase in funding for three programs labeled by NSF as 
``innovation'' programs, including Partnerships for Innovation ($19.2 
million), Science and Engineering Beyond Moore's Law ($70.2 million), 
and NSF's Centers programs ($313.8 million across NSF).

Cyberlearning

    The Foundation is proposing to establish a new multidisciplinary, 
multi-directorate research program called Cyberlearning Transforming 
Education, funded at $41 million in FY 2011. `Cyberlearning' is defined 
as the use of networked computing and communications technologies to 
support learning.

Polar Icebreakers

    In 2005, NSF signed a memorandum of understanding (MOU) with the 
U.S. Coast Guard (USCG) in which NSF agreed to take over maintenance 
and operations budgetary authority for USCG icebreakers operating in 
the Arctic and Antarctic. The rationale for the MOU was that the 
majority of the USCG icebreakers time was dedicated to supporting NSF's 
science missions at the Poles. In FY 2010, the Appropriators required 
that budgetary authority be shifted back to USCG, and provided FY 2010 
appropriations accordingly. As a result, $54 million is excluded from 
the FY 2010 NSF budget total, thereby obscuring the true growth in 
funding for NSF's programs. This issue remains unresolved between 
Congress and the Administration.

Research Infrastructure

    Approximately 24 percent ($1.77 billion) of NSF's FY 2011 budget is 
devoted to research infrastructure. In addition to support for major 
facility construction under the MREFC account (below), this total 
includes support from within the R&RA account for: pre-construction 
design, and maintenance and operations for MREFC projects; major 
research instrumentation ($90 million), federally funded R&D centers, 
and polar facilities and logistics. For a detailed explanation of the 
challenges of academic facilities modernization and the Academic 
Research Infrastructure (ARI) program in particular, refer to the 
charter from the February 23 subcommittee hearing on that topic.\1\
---------------------------------------------------------------------------
    \1\ http://science.house.gov/publications/
hearings<INF>-</INF>markups<INF>-</INF>details.aspx?NewsID=2743

---------------------------------------------------------------------------
Education and Human Resources (EHR)

    The Education and Human Resources Directorate would be funded at 
$892 million in FY 2011, an increase of only $19.2 million or 2.2 
percent over FY 2010 funding. The Administration continues to offer a 
mixed message regarding this treatment of EHR relative to the healthy 
increase for R&RA. On the one hand, they point out that funding for EHR 
alone represents an incomplete picture of the many education and 
training programs and activities distributed across NSF. On the other 
hand, they maintain that NSF is primarily a research agency and that 
the Department of Education (ED) has a greater responsibility for 
education, especially at the K-12 level. Significant funding ($450 
million) is requested for STEM specific programs at ED in the FY 2011 
budget. We understand from both NSF and ED staff that the partnership 
and cooperation between the two agencies has increased markedly in the 
last year.

COMPETES Programs

    In the FY 2011 budget, the Noyce Teacher Scholarship program would 
be funded at $55 million, the same level since FY 2009, and Math and 
Science Partnerships (MSP) would be funded at $58.2 million, the same 
level as in FY 2010 and a small decrease from FY 2009 funding. Both 
Noyce and MSP received significant funding in the Recovery Act ($60 
million and $25 million, respectively).
    At the graduate level, the Administration has pledged to triple the 
number of NSF graduate research fellows (GRF) to 3000 by 2013, and has 
provided a 16 percent increase to $158 million for GRF in the FY 2011 
proposal. NSF has an additional graduate student training program 
called Integrative Graduate Education and Research Traineeship (IGERT), 
for which the Foundation proposes a decrease of 11 percent to $62 
million in FY 2011. Both programs are funded from both EHR and R&RA, 
with IGERT split evenly between the directorates and GRF receiving two-
thirds of its funding from ERR. GRF is important in that it provides 
individual students with flexibility in the research they pursue rather 
than being tied to a particular investigator's grant, but the program 
does not involve any additional professional development for its 
fellows or involve the institution in any way. IGERT, on the other 
hand, creates student cohorts working on interdisciplinary projects 
that allow them to develop both individual and teamwork skills, and has 
the additional goal of catalyzing broader, cultural changes in graduate 
STEM education at participating institutions. In COMPETES, Congress 
required that both of these excellent and important programs grow at 
the same rate.
    Two additional EHR programs highlighted in COMPETES, the two-year 
college Advanced Technological Education Program ($64 million), and the 
STEM Talent Expansion Program ($32.5 million) were both flat funded in 
the FY 2011 request.

Broadening Participation

    Of particular note in the EHR budget is the proposed restructuring 
of programs to broaden participation in STEM at the undergraduate 
level. NSF is proposing a new comprehensive broadening participation 
program that builds on three existing programs: Historically Black 
Colleges and Universities Undergraduate Program (HBCU-UP), Louis Stokes 
Alliances for Minority Participation (LSAMP) and Tribal Colleges 
Undergraduate Program (TCUP), and newly invites proposals from Hispanic 
Serving Institutions, citing the mandate in Sec. 7033 of the COMPETES 
Act. Funding for this newly consolidated program would be $103 million 
in FY 2011, a $13 million or 14.4 percent increase from the total FY 
2010 funding for HBCU-UP, LSAMP and TCUP.
    In the budget narrative, NSF describes this consolidation as 
``combining expertise developed previously in separate programs in 
order to promote opportunities to build sustainable partnerships and 
alliances among [institutions] with a strong track record in producing 
underrepresented STEM graduates, thereby building capacity for the STEM 
field across a range of institutions.'' Members of various constituent 
communities have expressed concern about possible unintended 
consequences of this consolidation and about the lack of transparency 
by which the consolidation was conceived and developed. On March 16, 
our subcommittee will hold a hearing to examine Federal programs to 
broaden participation in STEM.

Major Research Equipment and Facilities Construction (MREFC)

    The MREFC account supports large, multi-user facilities, 
distributed instrumentation networks, or large pieces of equipment such 
as telescopes, research vessels, or accelerators that benefit an entire 
scientific discipline and could not be achieved without significant 
Federal support.
    The MREFC request for FY 2011 is $165 million, an increase of $41 
million from FY 2010. MREFC also received $400 million in the Recovery 
Act to initiate construction on three projects: The Alaska Region 
Research Vessel, the Advanced Technology Solar Telescope, and the Ocean 
Observatories Initiative, two of which will continue to receive funding 
in FY 2011. The only new start in FY 2011 is the National Ecological 
Observatory Network (NEON), which passed final design review in 
November.


                                           NSF FY 2011 BUDGET REQUEST
----------------------------------------------------------------------------------------------------------------
                                                                                            Change over FY 2010
                   NSF Program Activity                      FY 2009   FY 2010   FY 2011 -----------------------
                                                            Actual *    Plan     Request   Amount     % Change
----------------------------------------------------------------------------------------------------------------
Research and Related Activities (R&RA)                       7215.0    5563.9    6018.8       455          8.2%
----------------------------------------------------------------------------------------------------------------
    Biological Sciences                                       916.6     714.5     767.8        53          7.5%
----------------------------------------------------------------------------------------------------------------
    Computer S&E (ClSE)                                       809.5     618.8     684.5        66         10.6%
----------------------------------------------------------------------------------------------------------------
    Engineering                                               930.0     743.9     825.7        82         11.0%
----------------------------------------------------------------------------------------------------------------
    Geosciences                                              1155.5     889.6     955.3        66          7.4%
----------------------------------------------------------------------------------------------------------------
    Math & Physical Sciences                                 1718.9    1351.8    1409.9        58          4.3%
----------------------------------------------------------------------------------------------------------------
    Social, Behavioral and Economic Sciences                  325.5     255.3     268.8        14          5.3%
----------------------------------------------------------------------------------------------------------------
    Cyberinfrastructure                                       279.2     214.3     228.1        14          6.4%
----------------------------------------------------------------------------------------------------------------
    International S&E                                          61.4      47.8      53.3         5         11.4%
----------------------------------------------------------------------------------------------------------------
    Polar Programs                                            645.4     451.2     528.0      76.8         17.0%
----------------------------------------------------------------------------------------------------------------
Education and Human Resources (EHR)                           930.5     872.8     892.0      19.2          2.2%
----------------------------------------------------------------------------------------------------------------
    Research on Learning                                      226.7     242.0     247.9       5.8          2.4%
----------------------------------------------------------------------------------------------------------------
    Undergraduate                                             368.1     292.4     290.0      -2.4         -0.8%
    Education
----------------------------------------------------------------------------------------------------------------
      MSP                                                      86.0      58.2      58.2       0.0          0.0%
----------------------------------------------------------------------------------------------------------------
      Noyce Scholarships                                      115.0      55.0      55.0       0.0          0.0%
----------------------------------------------------------------------------------------------------------------
    Grad Research and Education                               181.7     181.4     185.3       3.8          2.1%
----------------------------------------------------------------------------------------------------------------
    Human Resources                                           154.1     156.9     168.9      12.0          7.6%
    Develop.
----------------------------------------------------------------------------------------------------------------
MREFC                                                         414.8     117.3     165.2      47.9         40.8%
----------------------------------------------------------------------------------------------------------------
Agency Operations (AOAM)                                      294.1     300.0     329.2      29.2          9.7%
----------------------------------------------------------------------------------------------------------------
Inspector General (OIG)                                        12.0      14.0      14.4       0.4          2.5%
----------------------------------------------------------------------------------------------------------------
Nat. Science Board (NSB)                                        4.0       4.5       4.8       0.3          6.6%
----------------------------------------------------------------------------------------------------------------
    AGENCY TOTAL                                             6468.8    6872.5    7424.4     551.9          8.0%
----------------------------------------------------------------------------------------------------------------
* includes ARRA funding


NSF Participation in Major Interagency Initiatives (USGCRP, NNI, and 
                    NITRD)

U.S. Global Climate Change Research Program (USGCRP)

    Started in 1989, the USGCRP is an interagency effort comprised of 
13 departments and agencies. Activities of the USGCRP are grouped under 
the following areas: improving knowledge of Earth's past and present 
climate variability and change; improving understanding of natural and 
human forces of climate change; improving capability to model and 
predict future conditions and impacts; assessing the Nation's 
vulnerability to current and anticipated impacts of climate change; and 
improving the Nation's ability to respond to climate change by 
providing climate information and decision support tools that are 
useful to policymakers and the general public. Overall, the 
Administration proposes $2.56 billion for USGCRP in the FY 2011 budget, 
a $439 million (21 percent) increase over FY 2010 enacted. Likewise, 
climate change science is the cross-cutting area of research at NSF 
that received the most significant boost in the FY 2011 budget request. 
The Foundation's investment in USGCRP would increase by $50 million (16 
percent) to $370 million in FY 2011. The most significant increase ($27 
million) would go toward research on climate variability and change 
across temporal and spatial scales.

National Nanotechnology Initiative (NNI)

    The Science and Technology (S&T) Committee was instrumental in the 
development and enactment of the 21st Century Nanotechnology Research 
and Development Act of 2003 (P.L. 108-153), which authorizes the 
National Nanotechnology Initiative (NNI). The NNI focuses on R&D that 
creates materials, devices, and systems that exploit the fundamentally 
distinct properties of matter as it is manipulated at the nanoscale. 
Currently, 13 agencies report a nanotechnology R&D budget. Overall, the 
Administration proposes $1.8 billion for NNI in the FY 2011 budget, a 
$5 million decrease from FY 2010 enacted. The Foundation's investment 
in NNI would decrease by $16 million (3.9 percent) to $401 million in 
FY 2011. However, two specific research areas under NNI would receive 
an increase at NSF: nanomanufacturing and environmental, health and 
safety research.

Networking and Information Technology R&D Program (NITRD)

    Similarly, the S&T Committee was instrumental in the development of 
the multi-agency Networking and Information Technology R&D (NITRD) 
program through the High Performance Computing Act of 1991 (P.L. 102-
194). The mission of the NITRD program is to accelerate progress in the 
advancement of computing and networking technologies and to support 
leading edge computational research in a range of science and 
engineering fields. Currently, 13 Federal agencies report a NITRD 
budget. Overall, the Administration proposes $4.3 billion for NITRD in 
the FY 2011 budget, a decrease of $9 million from FY 2010 enacted. The 
Foundation's investment in NITRD would increase by $80 million (7.3 
percent) to $1.17 billion in FY 2011. This increase is spread across 
all but one of the NITRD program component areas.
    Chairman Lipinski. This hearing will now come to order.
    Good morning, and welcome to this Research and Science 
Education Subcommittee hearing on the National Science 
Foundation's fiscal year 2011 budget request. In addition to 
reviewing the budget request, we will be examining the status 
of NSF programs authorized under the 2007 America COMPETES Act 
and discussing opportunities to further strengthen NSF's 
research and education missions through targeted programs and 
policies.
    I was very pleased to see the President's strong increases 
for NSF being proposed in the President's budget, especially in 
these tough budget times. I believe that overall, this reflects 
the President's commitment to our future economic growth and 
his understanding that such growth is tied very strongly to the 
investments we make in science and innovation today. I look 
forward to hearing from Dr. Bement and Dr. Beering about some 
of the new research initiatives and directions being proposed 
in this budget.
    But before I begin, I would like to spend a couple of 
minutes laying out some of my concerns. First, this 
Administration, and the President himself, has made a strong 
commitment to STEM [Science, Technology, Engineering, Math] 
education, and I do not underestimate the impact of having the 
President himself publicly engaged on this critical issue. But 
once again the Administration is proposing a budget for NSF's 
Education directorate that barely keeps pace with inflation. I 
support an increased role for the Department of Education in 
STEM education and am happy to hear that collaboration between 
the agencies has increased markedly in the last year. But NSF 
has a long, rich and successful history in supporting STEM 
education activities and programs, and a unique expertise that 
the Department of Education cannot effectively duplicate. I 
worry about both the statement being made by the request and 
the consequences flat funding would have for NSF's excellent 
programs.
    Second, this subcommittee held a hearing just a couple of 
weeks ago on academic research infrastructure. I know that we 
are still waiting to see what impacts the Recovery Act ARI 
[Academic Research Infrastructure] program will have, and that 
there are some concerns that infrastructure funding could 
potentially cut into research funding. But I also have concerns 
that we are not investing our research dollars as effectively 
as we could be if we invested first in modernizing our research 
facilities. So I look forward to discussing ways that the 
Federal Government can help support the critical modernization 
of academic research infrastructure. This is an issue that is 
becoming increasingly critical as state universities have seen 
significant budget cuts and all universities have experienced 
shrunken endowments and an increased need to provide financial 
aid.
    Finally, I would like to understand the justification for 
the decrease in funding for nanotechnology research under the 
NNI [National Nanotechnology Initiative] program. In 2007, $60 
billion in nano-enabled products were sold, and it is predicted 
that the number will rise to $2.6 trillion by 2014. That is a 
pretty staggering number. Surely we should be investing more, 
not less, in this important area of research.
    And finally, Dr. Bement, and Dr. Beering, I want to take 
this opportunity this morning to thank you for your service. As 
most of you know, Dr. Bement will be leaving his post as the 
Director of NSF on June 1st. I want to take this opportunity to 
congratulate Dr. Bement on his new position at Purdue and thank 
him for his years of service to the government and to the 
entire scientific community. You are not leaving quite yet, Dr. 
Bement, and we are still planning to pass the COMPETES 
reauthorization in the House before your departure date, so I 
look forward to working with you closely as we develop this 
legislation over the next several weeks.
    I understand that Dr. Beering is also coming to the end of 
his term as Chair of the National Science Board this May, and I 
thank you, Dr. Beering, for your service and wish both of you 
success in your future endeavors.
    [The prepared statement of Chairman Lipinski follows:]
             Prepared Statement of Chairman Daniel Lipinski
    Good morning and welcome to this Research and Science Education 
Subcommittee hearing on the National Science Foundation's fiscal year 
2011 budget request. In addition to reviewing the budget request, we 
will be examining the status of NSF programs authorized under the 2007 
America COMPETES Act and discussing opportunities to further strengthen 
NSF's research and education missions through targeted programs and 
policies.
    I was very pleased to see the strong increases for NSF being 
proposed in the President's budget, especially in these tough budget 
times. I believe that overall, this budget reflects the President's 
commitment to our future economic growth and understanding that such 
growth is tied very strongly to the investments we make in science and 
innovation today. I look forward to hearing from Dr. Bement and Dr. 
Beering about some of the new research initiatives and directions being 
proposed in this budget.
    But before we begin, I would like to spend a couple of minutes 
laying out some of my concerns. First, this Administration, and the 
President himself, has made a strong commitment to STEM education, and 
I do not underestimate the impact of having the President himself 
publicly engaged on this critical issue. But once again the 
Administration is proposing a budget for NSF's Education directorate 
that barely keeps pace with inflation. I support an increased role for 
the Department of Education in STEM education and am happy to hear that 
collaboration between the agencies has increased markedly in the last 
year. But NSF has a long, rich, and successful history in supporting 
STEM education activities and programs, and a unique expertise that the 
Department of Education cannot effectively duplicate; I worry about 
both the statement being made by the request and the consequences flat 
funding would have for NSF's excellent programs.
    Second, this subcommittee held a hearing just a couple of weeks ago 
on academic research infrastructure. I know that we are still waiting 
to see what impacts the Recovery Act ARI program will have, and that 
there are some concerns that infrastructure funding could potentially 
cut into research funding. But I also have concerns that we are not 
investing our research dollars as effectively as we could be if we 
invested first in modernizing our research facilities. So I look 
forward to discussing ways that the Federal Government can help support 
the critical modernization of academic research infrastructure. This is 
an issue that is becoming increasingly critical as state universities 
have seen significant budget cuts and all universities have experienced 
shrunken endowments and an increased need for financial aid.
    Finally, I would like to understand the justification for the 
decrease in funding for nanotechnology research under the NNI program. 
In 2007, $60 billion in nano-enabled products were sold; and it is 
predicted that the number will rise to $2.6 trillion by 2014. That's a 
pretty staggering number. Surely we should be investing more, not less, 
in this very important area of research.
    Dr. Bement, and Dr. Beering, thank you for taking the time to 
appear before the subcommittee this morning. As most of you know Dr. 
Bement will be leaving his post as the Director of NSF on June 1. I 
want to take this opportunity to congratulate Dr. Bement on his new 
position at Purdue and thank him for his years of service to the 
government and to the entire scientific community. You're not leaving 
quite yet Dr. Bement, and we are still planning to pass the COMPETES 
Reauthorization in the House before your departure date, so I look 
forward to working with you closely as we develop this legislation over 
the next several weeks.
    I understand that Dr. Beering is also coming to the end of his term 
as chair of the National Science Board this May. Thank you Dr. Beering 
for your service, and I wish both of you success in your future 
endeavors.

    Chairman Lipinski. With that, the Chair will now recognize 
Dr. Ehlers for an opening statement.
    Mr. Ehlers. Thank you, Mr. Chairman.
    In the fiscal year 2011 budget request, the Administration 
has requested substantial increases in funding for the National 
Science Foundation. I am pleased the funding request continues 
the Foundation on a path to doubling its budget, although that 
path has had a rather bumpy start over the last several years. 
I do join with my colleague in thanking the President for 
increasing the funding for the National Science Foundation and 
for his support of science in general.
    I do, however, express the same concerns he has about the 
funding of the education area. The budget request proposes some 
targeted investments at the National Science Foundation in the 
areas of innovation, cyberlearning and graduate education. It 
also proposes some restructuring of the programs targeted at 
broadening participation at the undergraduate levels in science 
and engineering. I look forward to learning more about these 
proposals from our witnesses today, but I am very disappointed 
with the funding provided in the request for K-12 educational 
activities within the Education and Human Resources 
directorate. Although the NSF has defended the successes of the 
Math and Science Partnership program, no increase is requested 
for this program or for the Noyce program, which also focuses 
on training teachers for K-12 positions. This is a longstanding 
problem. Under the previous Administration as well, funding for 
NSF in this area was cut on the basis that the Department of 
Education was taking over. The programs are totally different, 
and just because they are both sometimes called Math and 
Science Partnership programs doesn't mean they are identical. 
We must continue to support the good work that the National 
Science Foundation does in this area and recognize that that 
good work is foundational to whatever the Department of 
Education wishes to do.
    I have met with the Secretary of Education on this and also 
his new assistant in this area, Michael Lach, who is a 
marvelous person and has done great things in various school 
systems, particular the Chicago school system, and they 
understand the issue. We have to make sure that the President 
and the Office of Management and Budget understand the issue as 
well and continue strong support for the National Science 
Foundation activities in STEM education.
    So although the NSF has defended the successes of the 
program, no increase is requested for this program, as I said, 
or for the Noyce program, which is of very long standing, and I 
hope that we can reverse that through the appropriations 
process.
    Several other programs focused on our innovative workforce, 
such as the Advanced Technological Education program, are also 
flat funded. As we consider reauthorization of the COMPETES 
Act, these NSF programs have the potential to make great 
impacts on science, technology, engineering and math education 
in this country, and I would also add, even though it fits 
within the math part of the STEM program, I want to emphasize 
the importance of getting caught up in computer science again. 
We are not doing well in that particular area in this Nation. 
We must increase the interest in computer science in the 
elementary and secondary schools and certainly must increase 
the number of computer scientists that we are developing, 
particularly as we as a Nation worry more about cybersecurity.
    The current budget, despite providing for the doubling of 
the overall NSF budget, does not emphasize the importance of 
STEM education to our country's economic competitiveness. That 
is a very, very important point. I look forward to hearing from 
our excellent witnesses today about the new additions proposed 
in the fiscal year 2011 budget and how we can work together to 
strength the COMPETES Act.
    Thank you very much. I yield back.
    [The prepared statement of Mr. Ehlers follows:]
         Prepared Statement of Representative Vernon J. Ehlers
    In the fiscal year 2011 budget request, the Administration has 
requested substantial increases in funding for the National Science 
Foundation (NSF). I am pleased the funding request continues the 
Foundation on a path to doubling its budget, although that path has had 
a rather bumpy start over the last several years.
    The budget request proposes some targeted investments at the NSF in 
the areas of innovation, cyberlearning, and graduate education. It also 
proposes some restructuring of the programs targeted at broadening 
participation at the undergraduate levels in science and engineering. I 
look forward to learning more about these proposals from our witnesses 
today.
    Finally, I am disappointed with the funding provided in the request 
for K-12 educational activities within the Education and Human 
Resources (EHR) Directorate. Although the NSF has defended the 
successes of the Math and Science Partnerships program, no increase is 
requested for this program, or for the Noyce Program, which also 
focuses on training teachers for K-12 positions. Several other programs 
focused on our innovative workforce, such as the Advanced Technological 
Education program, are also flat-funded. As we consider reauthorization 
of the COMPETES Act, these NSF programs have the potential to make 
great impacts on science, technology, engineering and math (STEM) 
education in this country. The current budget, despite providing for 
the doubling of the overall NSF budget, does not emphasize the 
importance of STEM education to our country's economic competitiveness.
    I look forward to hearing from our witnesses about the new 
initiatives proposed in the FY 11 budget and how we can work together 
to strengthen the COMPETES Act.

    Chairman Lipinski. Thank you, Dr. Ehlers, and if there are 
Members who wish to submit additional opening statements, your 
statements will be added to the record at this point.
    [The prepared statement of Ms. Johnson follows:]
       Prepared Statement of Representative Eddie Bernice Johnson
    Thank you, Mr. Chairman.
    The National Science Foundation funding request of 7.424 billion 
supports a vision to double its budget within ten years.
    As the only Federal agency dedicated to the support of basic 
research and education across all fields of science and engineering, 
NSF funds approximately 20 percent of all federally funded basic 
research by America's colleges and universities.
    I am convinced that an investment in NSF will help ensure our 
future viability and competitiveness as a nation. In order to 
strengthen our science and technology workforce, infrastructure, and 
spark the curiosity of young minds to innovate the next technological 
feat, we must strengthen these critical programs.
    It is a mistake to underestimate the importance of basic research 
in the physical sciences. A basic, fundamental understanding of all 
branches of science is needed in order to lay down the foundation for 
applied science.
    Our country is falling behind in graduating students with advanced 
STEM degrees because they are falling behind at an early age. In order 
for America to regain its global competitive leadership in the sciences 
it's going to take an effort from us all to rebuild our workforce from 
the ground up. We need higher salaries and better preparation for 
teachers. We need better resources and access to technology available 
to all of students can have the same opportunities. We need a 
commitment from those who do graduate in these disciplines to reach 
back down the pipeline and help inspire more to enter these fields. We 
need effective legislation that can be the spark towards increased STEM 
interest, study, and practice. We have to cultivate, sustain, and 
prepare students from the beginning to ensure they make it through to 
the end.
    Dr. Bement, on February 25, 2010 it was my pleasure to address the 
seventh annual NSF ITEST Summit. I enjoyed speaking with some of the 
personal investigators, and the ITEST project personnel in attendance. 
Allowing students to use the same technology as scientists and 
engineers at an early age will help inspire our youth to believe in 
themselves.
    There are many examples of critical support that NSF has provided 
to Texas researchers. NSF grants are extremely important for 
researchers in my homestate of Texas.
    Mr. Chairman, I believe this committee is tasked with helping NSF 
do its job well.
    If we want to cultivate domestic, home-grown talent in the 
sciences, we simply must increase the funds NSF can use for research 
grants, Mr. Chairman.
    We must strengthen our workforce diversity. Women and minorities 
need greater attention in NSF's programmatic agenda. Although blacks, 
Hispanics, and American Indians as a group are more than 23 percent of 
the U.S. population, they are only 13 percent of science and 
engineering bachelor's degree recipients.
    By NSF's own calculations, underrepresented minorities as a whole 
are only six percent of the science and engineering labor force.
    This is unacceptable. Doctor Bement and Doctor Beering, I know the 
task of prioritizing the many aspects of NSF's mission is difficult. I 
ask that you increase efforts to increase minority participation and to 
help young investigators. Tomorrow's workforce is counting on you.
    Thank you, Mr. Chairman. I yield back.

    At this time I would like to introduce our witnesses. Dr. 
Arden Bement is the Director of the National Science 
Foundation, and Dr. Steven Beering is Chair of the National 
Science Board. As our witnesses certainly know, you will each 
have five minutes for your spoken testimony. Your written 
testimony will be included in the record for the hearing. When 
you all have completed your spoken testimony, we will begin 
with questions. Each Member will have five minutes to question 
the panel.
    We will start here with Dr. Bement.

   STATEMENT OF DR. ARDEN L. BEMENT, JR., DIRECTOR, NATIONAL 
                       SCIENCE FOUNDATION

    Dr. Bement. Chairman Lipinski, Ranking Member Ehlers and 
Members of the Subcommittee, I am pleased to appear before you 
today.
    The essence of the President's 2011 budget request for the 
National Science Foundation is to reaffirm the agency's roots 
as the Nation's wellspring of scientific innovation. NSF's 2011 
request is $7.4 billion, an increase of eight percent over 
2010. This keeps us on the road to the President's goal in the 
America COMPETES Act to double NSF's budget. But as with any 
budget, this request reflects tough choices and clear 
priorities. It recognizes NSF's unique national responsibility 
for supporting basic research, our catalytic role in education, 
and the ongoing need for investments in stewardship.
    NSF's research and education agenda is both multifaceted 
and well rounded. It is designed very deliberately to support 
the Administration's plan of making innovation a centerpiece of 
economic strength and future well-being. The main driver for 
this investment is the National Innovation Strategy. Nothing 
speaks more to what NSF is and does than the Administration's 
commitment to fundamental research, and it is emphasized 
throughout the budget. When you talk about the building blocks 
of innovation, you talk about NSF. You will also see NSF at the 
forefront of educating the next generation with 21st century 
knowledge and skills. Let me highlight the programs that are 
central to this goal.
    The Advanced Technological Education [ATE] program supports 
new and enhanced two-year college programs that educate 
technicians for the high-technology workforce. The Graduate 
Research Fellowship [GRF] and Faculty Career Development 
programs support students and early career investigators to 
foster the Nation's next generation of scientists and 
engineers. Climate Change Education addresses learning at all 
levels and is designed to stimulate interest in careers in 
climate science. NSF programs also support next-generation 
information technology and secure cyberspace. NSF will support 
the interagency Networking and Information Technology R&D 
program at $1.17 billion.
    Overcoming challenges inherent in today's great scientific 
questions will require a new computer revolution to overcome 
the physical restrictions of today's silicone chip-based 
technology. NSF's Science and Engineering Beyond Moore's Law is 
a multidisciplinary research program designed to enhance our 
Nation's economic competitiveness. The program's name refers to 
the proposition that computer processing power based on 
semiconductor integrated circuits doubles about every 18 
months. We are rapidly reaching the physical limitation of that 
progress.
    NSF must continue to innovate in tracking the large-scale 
scientific and engineering challenges of our age, including 
understanding the nature and scope of changes in the earth's 
climate. NSF contributes multiple resources to support the U.S. 
Global Change Research program and other interagency 
initiatives that are helping us understand and confront the 
global challenge of a changing climate. NSF's contribution to 
the U.S. Global Change Research program is proposed to increase 
by 16 percent to $370 million.
    Also in 2011, NSF will spend $766 million on a portfolio of 
activities called Science, Engineering, and Education for 
Sustainability. It will seek integrated approaches to increased 
U.S. energy independence, enhanced environmental stewardship 
and reduce energy use and carbon intensity while generating 
continued economic growth.
    Re-gaining our Energy Science and Engineering Edge, or RE-
ENERGYSE, is a new $19 million program to help the Nation 
regain its leadership in science and engineering by attracting 
and educating future scientists in the clean energy field. NSF 
will jointly fund RE-ENERGYSE with the Department of Energy to 
prepare as many as 8,500 highly trained young scientists and 
engineers for clean energy careers by 2015. Additionally, RE-
ENERGYSE will provide training of technicians for clean energy 
industries.
    NSF's request includes $20 million in its Major Research 
Equipment and Facilities Construction account to begin 
construction of the National Ecological Observatory Network, or 
NEON. NEON is a multifaceted project with a total projected 
budget of $434 million spread out over the next six fiscal 
years. NEON will collect data on the effects of climate change, 
changes in land use, and invasive species on national resources 
and biodiversity. NEON will be the first observatory network 
designed to detect and enable forecasting of ecological change 
at the continental scale over multiple decades.
    As with any budget, the most important information is the 
message beyond the numbers. In fiscal year 2011, that message 
is the Administration's commitment to innovation and economic 
growth through science and engineering. The Foundation is 
pleased to be playing an important role in that effort.
    Mr. Chairman and Members of the Committee, as this will 
likely be the last time I testify before you before leaving on 
June 1st, I want to make certain that you are aware of how 
deeply appreciative I am of your support over the past nine 
years as director at NIST and NSF. I also want to make a 
special note of wishing well Congressman Ehlers and Congressman 
Baird in their future activities as they leave this committee, 
and I have enjoyed a very long and close relationship with both 
of you and I hope that will continue in our new activities. 
Thank you.
    [The prepared statement of Dr. Bement follows:]
               Prepared Statement of Arden L. Bement, Jr.
    Chairman Lipinski, Ranking Member Ehlers, and Members of the 
Subcommittee, I am pleased to appear before you this morning.
    My testimony will focus principally on NSF's FY 2011 Budget 
Request. In doing so, however, I will highlight those aspects of the 
Request that have direct bearing on the upcoming reauthorization of the 
America COMPETES Act (ACA). Since its enactment in August 2007, the ACA 
has informed the priorities and investment strategies at NSF. There are 
countless aspects of the FY 2011 request--from the commitment to young 
investigators to new approaches to fostering high-risk, high-reward 
research--that directly reflect the ACA.
    This begins with the bottom line: The National Science Foundation 
(NSF) proposes a fiscal year 2011 investment of $7.42 billion, an 
increase of $552 million--or 8 percent--over the fiscal year 2010 
amount. This increase reflects the Administration's continued resolve 
to double funding for three key science agencies, including NSF.
    The National Science Foundation is the only Federal agency 
dedicated to the support of basic research and education across all 
fields of science and engineering. For 60 years, we have been exploring 
the frontiers of scientific knowledge and extending the reach of 
engineering by encouraging, identifying, and funding the best ideas and 
most promising people. The high-risk, potentially transformative 
investments we make generate important discoveries and new technology, 
create and train a dynamic workforce, and spark the curiosity and 
creativity of millions. Our investments in research and education help 
ensure that our Nation remains globally competitive, prosperous, and 
secure.
    An investment in the National Science Foundation is a direct 
investment in America's economic security. In fact, without a solid 
basic research foundation for our high-tech economy, no economic 
security is possible. Basic research underpins all of the technology 
that constitutes the lifeblood of today's global market. America's 
sustained economic prosperity is based in part on technological 
innovation resulting from previous fundamental science and engineering 
research. Innovation and technology are engines of the American 
economy, and advances in science and engineering provide the fuel.
    While the United States still far outpaces the world in its level 
of public and private R&D investment and research output, our 
counterparts around the globe are well aware of the importance of 
funding R&D. As is highlighted in the just released 2010 Science and 
Engineering Indicators, the world's R&D expenditures have been on an 
11-year doubling path, growing faster than total global economic 
output. While the growth of annual U.S. R&D expenditures averaged 
around six percent, China, for example, has invested in R&D at an 
annual growth of over 22 percent during the same period of time.\1\
---------------------------------------------------------------------------
    \1\ http://www.nsf.gov/statistics/digest10/global.cfm#4
---------------------------------------------------------------------------
    Most recently, Norman Augustine, former CEO of Lockheed Martin, 
released a follow-up to ``The Gathering Storm'' report entitled, ``Is 
America Falling Off the Flat Earth?'' His message is clear: ``Unless 
substantial investments are made to the engine of innovation basic 
scientific research and development--the current generation may be the 
first in our country's history to leave their children and 
grandchildren a lower sustained standard of living.'' \2\
---------------------------------------------------------------------------
    \2\ Augustine, Norman. Is America Falling Off the Flat Earth? 
National Academies Press
---------------------------------------------------------------------------
    For sixty years, NSF has been a steward of the nation's science and 
engineering enterprise. NSF investments in discovery, learning, and 
innovation have been important to increasing America's economic 
strength, global competitiveness, national security and overall quality 
of life.
    With its relatively small size, NSF delivers an enormous ``bang for 
the buck'' of Federal Government research and development (R&D) 
investment. NSF represents just four percent of the total Federal 
budget for research and development, but accounts for over sixty 
percent of Federal support of non-life science basic research at 
academic institutions. For example, NSF's share of Federal support for 
basic research in computer sciences at academic institutions in FY 2008 
was over 80%. NSF is the research funding lifeline for many fields and 
emerging interdisciplinary areas at the frontiers of discovery. In 
fact, NSF is the only Federal agency that supports all fields of basic 
science and engineering research.
    NSF-funded research is characterized by its breadth. NSF 
prioritizes the integration of education into its research programs, 
and takes into account the broader societal impacts of the work it 
funds, such as the training that students and young researchers receive 
in the research process, and the educational opportunities the work and 
its people can then provide to the larger community of K-16 students 
and teachers and the general public.
    NSF's comprehensive and flexible support of meritorious projects 
with broad societal impacts enables the Foundation to identify and 
foster both fundamental and transformative discoveries within and among 
fields of inquiry. NSF has the latitude to support emerging fields, 
high-risk ideas, interdisciplinary collaborations, and research that 
pushes, and even transforms, the very frontiers of knowledge. In these 
ways, NSF's discoveries inspire the American public--and the world.
    NSF's organization mirrors science and engineering. Its portfolio 
spans the biological sciences, computer and information science and 
engineering, engineering, geosciences, mathematics and physical 
sciences, and social, behavioral, and economic sciences--encompassing 
both research and education in these areas. NSF also carries out 
specific national responsibilities for polar programs, 
cyberinfrastructure, international science and engineering, and a range 
of responsibilities related to the nation's overall capabilities in 
science and engineering, including statistical resources on the overall 
U.S. and international R&D enterprise. The 25-member National Science 
Board sets the overall policies of the Foundation.
    The cornerstone of NSF is the merit-based, competitive process that 
fosters the highest standards of excellence and accountability--
standards that have been emulated at funding agencies around the world.

2011 Budget Request Highlights

    At NSF, we understand that new discoveries are a driving force 
behind societal progress. As the nation's premier funding agency for 
basic research, our mission is to advance the frontiers of knowledge, 
where high-risk, high-reward research can lay the foundation for 
revolutionary technologies and tackle complex societal problems. The 
NSF budget for 2011 reflects this vital agenda, and I'm pleased to 
present it to you today.
    Let me begin with the big picture. As noted earlier, the President 
is requesting $7.42 billion for the NSF in FY 2011. That's an increase 
of almost $552 million, or eight percent above the current 2010 
appropriated amount. While it seems like a large increase, this level 
is necessary to fulfill the President's vision for doubling the 
National Science Foundation's budget. This increased investment will 
reinforce NSF's leadership in basic science and engineering and allow 
us to preserve America's preeminence in the global technology economy.
    In this year's proposed budget, funding levels increase for every 
NSF appropriations account. Research and Related Activities investments 
increase by 8.2 percent, and our Education and Human Resources account 
is increased by 2.2 percent. We need rapid progress in these areas to 
stimulate the discoveries in research we need to maintain our standing 
in the global marketplace, and to keep our students engaged and ready 
to perform in the global workforce. Our budget includes increases for 
every Directorate and Office within NSF. But, as with any budget, the 
FY 2011 Request reflects tough choices and clear priorities. It 
recognizes NSF's unique national responsibility for supporting basic 
research, our catalytic role in education, and the ongoing need for 
investments in stewardship.
    Here are highlights of some of the key investments we are 
emphasizing in our 2011 budget.

NATIONAL INNOVATION STRATEGY

    NSF's contribution to the Administration's A Strategy for American 
Innovation, announced by the President in September 2009, stems from 
its longstanding role in strengthening the building blocks of American 
innovation. This begins with investing in fundamental research and 
educating the next generation of scientists and engineers. It also 
includes more focused research on topics that advance vital 
capabilities--such as sustainability, secure networks, and leading-edge 
technologies--and fostering and facilitating partnerships that reach 
across today's global innovation enterprises.
    Maintain American Leadership in Fundamental Research. Since 
innovation depends on the foundation of earlier investments, NSF's 
foremost responsibility in innovation is to continue to support 
fundamental research and education in all fields of science and 
engineering. The President's Plan for Science and Innovation aims to 
double the Federal investment in three key basic research agencies over 
FY 2006 levels. This investment will be vital to the effort to increase 
national R&D investments to three percent of Gross Domestic Product.
    Educate the Next Generation with 21st Century Knowledge and Skills 
While Creating a World-Class Workforce. Two NSF programs described in 
this Request support the Strategy's educational goals.

        <bullet>  The Graduate Research Fellowship (GRF) program, (16.4 
        percent increase to $158.24 million); an Administration 
        priority, supports the development of the Nation's future 
        scientists and engineers. FY 2009 marked the beginning of a 
        growth trajectory to triple the number of new awards made each 
        year to 3,000 by FY 2013.

        <bullet>  RE-gaining our ENERGY Science and Engineering Edge 
        (RE-ENERGYSE), ($19.37 million) is located at the intersection 
        of energy, environment, and human factors. It is a partnership 
        between the Department of Energy (DOE) and the National Science 
        Foundation that will help the Nation regain its leadership 
        position in science and engineering by attracting and educating 
        future scientists in the clean energy field. By 2015, RE-
        ENERGYSE would prepare up to 8,500 highly educated young 
        scientists and engineers for clean energy careers and provide 
        training for thousands of skilled clean energy technicians.

    Support Research for Next-Generation Information and Communications 
Technology, and Secure Cyberspace. While nobody can predict which of 
today's fundamental discoveries will become tomorrow's new products and 
processes, a number of NSF programs support the Strategy's goal to 
promote innovation. These include:

        <bullet>  Science and Engineering Beyond Moore's Law (SEBML), 
        (50.3 percent increase to $70.18 million). In 10 to 20 years, 
        current silicon technology will reach the limits of Moore's 
        Law--the empirical observation that computing power doubles 
        roughly every 18 months. SEBML's transformational activities 
        accelerate innovation and create partnering opportunities with 
        the private sector and national laboratories.

        <bullet>  Cyber-enabled Discovery and Innovation (CDI), (2.8 
        percent increase to $105.48 million) CDI supports 
        transformative, multidisciplinary science and engineering 
        research made possible by innovations and advances in 
        computational concepts, methods, models, algorithms, and tools. 
        CDT breakthroughs advance one or more of the three themes: From 
        Data to Knowledge; Understanding Complexity in Natural, Built, 
        and Social Systems; Building Virtual Organizations.

        <bullet>  Cybersecurity, (10.6 percent increase to $144.55 
        million). NSF's basic research into usability, theoretical 
        foundations, and privacy supports the aims of the Comprehensive 
        National Cybersecurity Initiative.

Encourage High-Growth and Innovation-Based Entrepreneurship, and Create 
                    Competitive Communities By Promoting Regional 
                    Innovation Clusters

    Partnerships for Innovation (PFI), (108.8 percent increase to 
$19.19 million). PFI brings together colleges, universities, state and 
local governments, private sector firms, and nonprofit organizations. 
Initiated in FY 2000, PFI connects new knowledge created in the 
discovery process to learning and innovation, while broadening the 
participation of people and institutions in NSF activities. PFI 
activities include research, technology transfer, building 
infrastructure for innovation, and workforce education and training. In 
FY 2011, $12.0 million will be invested in a new ``NSF Innovation 
Ecosystem'' component, which aims to: increase the engagement of 
faculty and students across all disciplines in the innovation and 
entrepreneurship process; increase the impact of the most promising 
university innovations through commercialization, industry alliances, 
and start-up formulation; and develop a regional community that 
supports the ``innovation ecosystem'' around the university. It will 
draw on the individual entrepreneurial spirit of university faculty and 
students, as well as on the proven strengths of established technology 
centers such as Science and Technology Centers, Engineering Research 
Centers, Industry University Cooperative Research Centers, and others 
that link higher education institutions with investment and industry 
sectors. The Innovation Ecosystem initiative will focus on ways to 
maximize the innovation potential of scientific and engineering 
discovery in the university system and accelerate the technological 
innovation process with robust partnerships with the private sector.
    Grant Opportunities for Academic Liaison with Industry (GOALI), 
(0.4 percent increase to $18.58 million). GOALI seeks to increase 
partnerships between the academic and industrial communities and 
provide opportunities to accelerate innovation by strengthening the 
discovery knowledge base for a quicker translation of discovery to 
societal benefit. The program leverages its budget with support from 
other NSF academic research programs by a factor of four to one.
    Centers programs, (8.9 percent increase to $313.78 million). NSF 
supports over 100 centers in seven interdisciplinary program areas. 
Centers exploit opportunities in science, engineering, and technology 
in which the complexity of the research problem or the resources needed 
to solve the problem require the advantages of scope, scale, duration, 
equipment, facilities, and students. Centers often leverage their 
activities through partnerships with academic institutions, national 
laboratories, industrial organizations, and/or other public/private 
entities, and via international collaborations, as appropriate.

LEARNING AND WORKFORCE DEVELOPMENT

    For America to continue to lead the world in science and technology 
innovation, it must have the most knowledgeable and skilled science, 
technology, engineering, and mathematics (STEM) workers in the world. 
The National Innovation Strategy includes programs that support 
scientists and engineers at the beginning of their careers, prepare the 
next generation of Americans to understand and meet environmental 
challenges, and educate the next generation with 21st century knowledge 
and skills while creating a world-class workforce. This is not just the 
smart thing to do--it is the right thing to do for our country. By 
drawing on the spectrum of talents and backgrounds of America's diverse 
populace, we can bring new approaches to scientific discovery, new 
vantage points to engineering design, and new insights to innovation. 
This is essential as we increasingly find ourselves in competition with 
scientist and engineers and entrepreneurs from all corners of the 
globe, and as we strive to remain competitive in the diverse 
international marketplace.

Administration Priority Programs

    The FY 2011 budget maintains strong levels of support for four key 
Administration priority programs which were strongly supported in the 
FY 2010 Budget Request. The Graduate Research Fellowship (GRF) Program 
and the Faculty Early Career Development Program (CAREER) support the 
most promising students and early-career researchers in order to 
cultivate the next generation of STEM knowledge workers. Climate Change 
Education (CCE) targets learning at all levels and is designed to 
develop the next generation of skilled, educated, and climate-savvy 
Americans. Advanced Technological Education (ATE) supports new and 
enhanced two-year college programs that educate technicians for the 
high-technology workforce.

        <bullet>  The Graduate Research Fellowship (GRF) program 
        supports the development of the Nation's future scientists and 
        engineers. As noted earlier, FY 2009 marked the beginning of a 
        growth trajectory to triple the number of new awards made each 
        year to 3,000 by FY 2013.

        <bullet>  The Faculty Early Career Development Program (CAREER) 
        develops the future scientific and technical workforce through 
        support of young faculty who are dedicated to integrating the 
        excitement of research with inspired teaching and enthusiastic 
        learning.

        <bullet>  Climate Change Education is designed to develop the 
        next generation of skilled, educated, and climate-savvy 
        Americans. It catalyzes activity at the national level in four 
        strands of STEM education: preparation of a climate science 
        professional workforce; public understanding and engagement; 
        resources for learning; and local and national STEM education 
        policy.

        <bullet>  Advanced Technological Education (ATE) supports new 
        and enhanced two-year college programs that educate technicians 
        for the high-technology workforce. It is on a growth trajectory 
        begun in FY 2010 to increase the program's funding to $100 
        million by FY 2013.

LEARNING AND BROADENING PARTICIPATION

    The integration of research and education has been a hallmark of 
NSF since its inception. The Foundation's investments do double duty--
generating new knowledge and producing the next generation of 
scientists, technologists, engineers, mathematicians, and educators. 
Preparing a STEM workforce ready to lead innovation and address 
national needs requires the involvement of the full range of talent and 
diversity in the Nation, specifically students from traditionally 
underrepresented groups. This is not just the right thing to do--it is 
the smart thing to do for our country. By drawing on the spectrum of 
talents and backgrounds of America's diverse populace, we can bring new 
approaches to scientific discovery, new vantage points to engineering 
design, new insights to innovation. This is essential as we increasing 
find ourselves in competition with scientist, engineers, and 
entrepreneurs from all corners of the globe, and as we strive to remain 
competitive in the diverse international marketplace.
    The FY 2011 Budget maintains strong support for agency-wide efforts 
to bring a fuller array of perspectives and participants to advancing 
discovery and innovation. Investments across NSF seek to broaden 
participation among people, institutions, and geographical regions.
    Comprehensive Broadening Participation of Undergraduate 
Institutions in STEM (CBP-UI), ($103.10 million). With an FY 2011 
investment of $103.10 million, NSF will implement a new consolidated 
program, which realigns and builds on existing programs: Historically 
Black Colleges and Universities Undergraduates program (HBCU-UP), Louis 
Stokes Alliances for Minority Participation (LSAMP), Tribal colleges 
and universities (TCUP), and Hispanic-serving institutions. This new 
program's objective is to help build sustainable partnerships and 
alliances among institutions with strong track records in producing 
underrepresented STEM graduates, thereby building capacity for the STEM 
field across a range of institutions. These comprehensive partnerships 
will increase the institutions' competitiveness by:

        <bullet>  strengthening STEM curricular offerings, enhancing 
        STEM faculty development, and increasing competencies and 
        competitiveness of students

        <bullet>  Transforming infrastructure, operations, and 
        resources

        <bullet>  Increasing support for and engagement in frontier 
        scientific research and access to advanced research 
        instrumentation, and maximizing undergraduate research 
        opportunities

        <bullet>  Facilitating expanded collaboration between 
        scientists and educators at minority-serving institutions with 
        those at majority institutions

        <bullet>  Stimulating innovation and creativity from the 
        nation's education and research enterprise through support of 
        effective collaborations between minority-serving and majority 
        institutions, especially research-intensive universities with 
        NSF Science and Technology Centers (STC), Materials Research 
        Science and Engineering Centers (MRSEC), and Engineering 
        Research Centers (ERC).

    Experimental Program to Stimulate Competitive Research (EPSCoR), 
(4.9 percent increase to $154.36 million) NSF remains a leader in 
efforts to broaden participation in science and engineering in all 
states and regions. EPSCoR's goal is to stimulate sustainable 
improvements in research participation from institutions in 
geographical areas that are underrepresented in NSF activities. 
Strategies include supporting research infrastructure improvement, co-
funding of disciplinary and interdisciplinary research, and conducting 
outreach and workshops. This growth mirrors the overall growth for the 
R&RA account for FY 2009 through FY 2011.
    Government-wide Strategy for STEM Education. In addition to its 
support for the programs and priorities already mentioned, NSF is 
actively engaged as a leading participant in the coordinated, 
government-wide strategy for STEM education. NSF is poised to build on 
previous and emerging collaborations with the U.S. Department of 
Education, and to use NSF's unique experience and knowledge base in 
STEM education to identify research and evaluation priorities and to 
consider appropriate standards of evidence for various stages of 
research and development cycles. The agencies are embarking jointly on 
possible collaborations and complementary initiatives to help states 
improve K-12 student learning in STEM by building and sharing knowledge 
of effective curricular and instructional practices, and how they can 
be implemented at scale.

NSF K-16 Stem Education Priorities

    An overarching commitment in all of NSF's K-16 investments is to 
address current and emerging educational challenges that have bearing 
on the preparation of a STEM workforce and a STEM-literate society. In 
particular, NSF K-16 investments are intended to catalyze innovation 
that improves learning, to validate what we think we already know, to 
scale what works, and to build a knowledge base through research and 
evaluation about how to improve STEM learning for all. These 
investments are made through several core programs that address K-16 
education.
    NSF has the following four priorities for K-16 education:

        <bullet>  improving K-16 education through increased research 
        and evaluation to allow for more strategic efforts to increase 
        STEM learning, support the creation of effective assessment 
        tools and approaches (including tools for measuring teacher 
        knowledge) that enable teachers and instructors to examine and 
        improve student learning across the K-16 level; and

        <bullet>  supporting topical areas of national importance, 
        namely climate and energy science, into the K-16 educational 
        enterprise;

        <bullet>  preparing the STEM workforce (including teachers) to 
        be the innovators of tomorrow by: improving recruitment, 
        retention, and program completion of undergraduates in two- and 
        four-year institutions; improving undergraduate instruction on 
        the basis of research evidence; and providing scholarships and 
        fellowships. A particular focus here is on specific strategies 
        and programs for increasing the participation of 
        underrepresented minority students in STEM;

        <bullet>  exploring the potential of cyberlearning to enable 
        new avenues of science, technology, engineering, and 
        mathematics (STEM) education and to create new ways of studying 
        the learning process itself.

    With the President's clearly stated emphasis on the importance of 
improving STEM education, NSF will be a willing partner in working with 
other Federal agencies and departments to more effectively leverage our 
efforts. This is a great opportunity for us to work together, and to 
learn from each other in moving toward the goal the President has 
established--American students moving from the middle to the top of the 
pack within a decade.

INVESTMENT PORTFOLIOS

    A portfolio investment strategy specifically addresses our role in 
addressing national challenges, such as stimulation of economic growth, 
promotion of innovative energy technologies which can help mitigate the 
impact of climate change, training of a world-class STEM workforce, and 
nurturing a scientifically literate population.
    A wide range of ongoing NSF investments contribute directly to 
energy technologies, understanding and mitigating climate change, and 
promoting green jobs. The FY 2011 Request presents a new framework for 
coordinating and enhancing these investments. To leverage NSF's 
strengths towards addressing the challenges we face, NSF proposes to 
focus on the full portfolio of activities in two key areas of national 
importance.
    Science, Engineering, and Education for Sustainability (SEES), (16 
percent increase to $765.5 million) will integrate NSF's efforts in 
climate and energy science and engineering to generate the discoveries 
and capabilities needed to inform societal actions that lead to 
environmental and economic sustainability. SEES addresses 
recommendations from the August 2009 report from the National Science 
Board, Building A Sustainable Energy Future, which emphasized systems 
approaches to research programs, education and workforce development, 
public awareness and outreach, and the importance of partnerships with 
other agencies, states, universities, industry, and international 
organizations.
    Cyberlearning Transforming Education (CTE), (63 percent increase to 
$41.3 million). This new multidisciplinary research program is intended 
to fully capture the transformative potential of advanced learning 
technologies across the education enterprise. CTE will enable wholly 
new avenues of science, technology, engineering, and mathematics (STEM) 
learning for students and for workforce development. Collaborating with 
the Department of Education to bring advances in technology to learners 
at all educational levels will advance the Nation's ability to study 
the learning process itself.

INTERAGENCY ACTIVITIES

    Networking and Information Technology Research and Development 
(NITRD), (7 percent increase to $1.170 billion). NITRD coordinates the 
unclassified networking and information technology research and 
development investments across thirteen Federal agencies. These 
agencies work together to develop a broad spectrum of advanced 
networking and IT capabilities to power Federal missions, economic 
competitiveness, and science, engineering, and technology leadership. 
NSF is a leader in the program and NITRD activities represent 16 
percent of NSF's
    FY 2011 budget. Funding foci for FY 2011 include large scale 
networking, cybersecurity and information assurance, high confidence 
software and systems, human-computer interaction and information 
management, and software design and productivity.
    National Nanotechnology Initiative (NNI), (four percent decrease to 
$401.3 million). NSF actively participates in the NNI, which 
coordinates nanotechnology research and development with 25 departments 
and agencies across the Federal Government. Nanotechnology encompasses 
the systematic understanding, organization, manipulation, and control 
of matter at the atomic, molecular, and supramolecular levels in the 
size range of 1 to 100 nanometers. NSF's investment in this activity 
increases in two key areas in FY 2011: nanomanufacturing (44 percent 
increase to $32.2 million) and Environmental, Health and Safety (11 
percent increase to $33.0 million).
    NSF contributes to the three NNI Signature Initiatives focusing on:

        <bullet>  Nanoelectronics for 2020 and Beyond (in partnership 
        with DOD, NIST, DOE, DNI);

        <bullet>  Sustainable Nanomanufacturing (in partnership with 
        NIST, DOE, EPA, NIH); and

        <bullet>  Nanotechnology Applications for Solar Energy (in 
        partnership with DOE, NIST, DOD, DNI, USDAINIFA).

    Additionally, NSF will further emphasize (beyond current support) 
the environmental, health and safety implications of nanotechnology, 
including development of predictive toxicity of nanomaterials, 
primarily through the support of three dedicated multidisciplinary 
centers and through support for approximately 60 additional research 
groups.
    The budget request includes, for example, further support for 
advanced manufacturing with an emphasis on nanomanufacturing, support 
for Science and Engineering Beyond Moore's Law (an integral aspect of 
nanoelectronics for 2020 and beyond), and support for new and 
innovative means for addressing energy challenges (such as solar 
energy) through the SEES initiative.

STEWARDSHIP INVESTMENTS

    Since 2001, the number of proposals submitted to NSF has increased 
by over 50 percent. In that time, staffing has increased by only 19 
percent. To support NSF's excellence in science and engineering 
research and education, NSF must invest in expanding and developing its 
workforce and resources to maintain a capable and responsive 
organization.
    The FY 2011 Request includes $468.8 million (+$39.I million) for 
activities aimed at assuring that NSF will be able to effectively and 
efficiently manage its operations. Funds will support:

        <bullet>  Staff, 40 additional full-time equivalents (for a 
        total of 1,350 FTE) and eleven additional IPAs are requested;

        <bullet>  IT investments, such as the expansion of 
        Research.gov, modernization of the NSF financial system, and 
        improvements in the reliability and security of NSF's 
        operational IT systems; and

        <bullet>  Acquisition, ($2.0 million). This increase is part of 
        the government-wide effort to strengthen the acquisition 
        workforce. A key priority for NSF is improving capabilities in 
        the pre-solicitation phase of major acquisitions.

    A specific emphasis in FY 2011 is promoting strong, independent 
evaluation that can inform policy decisions, program management, and 
performance assessment across NSF. NSF participates in the 
Administration's government-wide initiative to strengthen program 
evaluation and performance measurement, and shares its commitment to 
post the status and findings of this and other important publicly 
available evaluations online.

        <bullet>  High-Priority Performance Goal: NSF's goal for the 
        end of FY 2011 is to develop evaluation and assessment systems 
        for STEM education and workforce programs that can provide 
        findings leading to program re-design or consolidation.

        <bullet>  Foundation-wide planning, analysis, and evaluation. 
        $1.0 million will support additional staff and associated 
        resources for the establishment of a centralized NSF capability 
        for assessment and evaluation. This would bring greater 
        attention and analysis to such areas as comparing different 
        types of programmatic investments and identifying the most 
        effective means for continuous improvement across the NSF 
        portfolio.

Concluding Remarks

    Mr. Chairman, I've touched on just a handful of programs found in 
NSF's diverse and vibrant portfolio. NSF's research and education 
activities support the nation's innovation enterprise. America's 
present and future strength, prosperity and global preeminence depend 
directly on fundamental research. This is not merely rhetoric; the 
scientific and economic record of the past 30 years is proof that an 
investment in R&D is an investment in a secure future.
    NSF may not be the largest agency that funds science and 
engineering research, but our size serves to keep us nimble. Our 
portfolio is continually evolving as we identify and pursue new 
research at the frontiers of knowledge. An essential part of our 
mission is to constantly re-think old categories and traditional 
perspectives. This ability is more important than ever, as conventional 
boundaries constantly shift and disappear--boundaries between nations, 
between disciplines, between science and engineering, and between what 
is basic and what is applied. NSF, with its mandate to support all 
fields of science and engineering, is uniquely positioned to meet the 
needs of researchers exploring human knowledge at these interfaces, 
whether we're organizing interdisciplinary conferences, enabling cyber-
sharing of data and information, or encouraging new collaborations and 
partnerships across disciplinary and national borders. No other 
government agency comes close to our flexibility in STEM education and 
basic research.
    In today's high-tech economy, the supply of new jobs is 
inextricably linked to the health of the nation's innovation endeavor. 
NSF is involved in all aspects of innovation; NSF not only funds the 
discoveries that directly become the innovations of tomorrow, we also 
fund discoveries that lead to still more discoveries that lead to the 
innovations of tomorrow, and, perhaps most critically, we train the 
technologists who dream up the discoveries that lead to the discoveries 
and innovations of tomorrow.
    Industry continues to rely upon government support for high-risk, 
high-reward basic research. It is no accident that our country's most 
productive and competitive industries are those that benefited the most 
from sustained Federal investments in R&D--including computers and 
communications, semiconductors, biotechnology, and aerospace.
    As we look to the century ahead of us, we face the reality that the 
other nations in this world are eager to create jobs and robust 
economies for their citizens. In this context, ``globalization'' is 
shorthand for a complex, permanent, and challenging environment that 
calls for sustainable, long-term responses, not just short-term fixes.
    Despite some of the more pessimistic forecasts of some observers, I 
believe that America can continue to be on the leading edge of ideas 
and research. Through strong Federal leadership, we can maintain the 
standing of our businesses and universities. We must not only maintain 
our position, we must actively seek to increase our strengths: 
leadership in fundamental discovery, including high-risk, high-reward 
transformational research, state-of-the-art facilities and 
infrastructure, and a world-class S&E workforce. With a firm commitment 
to these fundamental building blocks of our high-tech economy, we can 
solidify America's role as the world leader in innovation.
    Mr. Chairman and members of the Committee, I hope that this brief 
overview has given you a taste of just how very important the National 
Science Foundation and its activities are to the future prosperity of 
the United States. I look forward to working with you in months ahead, 
and I am happy to answer any questions you may have.

                   Biography for Arden L. Bement, Jr.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    Arden L. Bement, Jr., was sworn in as the 12th Director of the 
National Science Foundation (NSF) on November 24, 2004. He had served 
as Acting Director since February 22, 2004.
    Dr. Bement heads the only Federal agency that funds research and 
education in all fields of science and engineering. He directs a budget 
of more than $6 billion; hundreds of programs that support roughly 
200,000 scientists, engineers, educators, and students across the 
country; and the development of world-class facilities and 
infrastructure. He oversees a robust international research program in 
the polar regions and several international partnerships to build 
sophisticated research and experimental facilities.
    Since the White House launch of the American Competitiveness 
Initiative in 2006, he has overseen numerous initiatives that 
strengthen the U.S. innovation base and economic position and intensify 
the training of the U.S. workforce to operate in a high-tech global 
economy. His top priorities have included increasing the size and 
duration of NSF funding awards; implementing electronic proposal and 
grant processing at NSF; developing cyberinfrastructure that advances 
research and education through expanded capabilities for networking, 
data processing and storage, modeling, and simulation; and broadening 
international collaborations to leverage NSF investments. He has 
expanded NSF's centers of excellence program to encompass dozens of 
science and engineering disciplines partnering with industries and 
educators.
    He serves as a member of the U.S. National Commission for UNESCO 
and as the vice-chair of the Commission's Natural Sciences and 
Engineering Committee. He is a member of the U.S. National Academy of 
Engineering, a fellow of the American Academy of Arts and Sciences, and 
a fellow of the American Association for the Advancement of Science.
    Dr. Bement is an ex officio member of the U.S. National Science 
Board, which guides NSF activities and serves as a policy advisory body 
to the President and Congress. He was a member of the NSB from 1989 to 
1995.
    Prior to his confirmation as NSF director in November 2004, Dr. 
Bement served as director of the National Institute of Standards and 
Technology of the Department of Commerce, a position he had held since 
Dec. 7, 2001. At NIST he oversaw an annual budget of about $773 million 
and an on-site research and administrative staff of 3,000 employees, 
complemented by a NIST-sponsored network of 2,000 locally managed 
manufacturing and business specialists serving smaller manufacturers 
across the United States.
    He joined NIST from Purdue University, where he was the David A. 
Ross Distinguished Professor of Nuclear Engineering and head of the 
School of Nuclear Engineering. He has held appointments at Purdue 
University in the schools of Nuclear Engineering, Materials 
Engineering, and Electrical and Computer Engineering, as well as a 
courtesy appointment in the Krannert School of Management. He was 
director of the Midwest Superconductivity Consortium and the Consortium 
for the Intelligent Management of the Electrical Power Grid.
    Dr. Bement joined the Purdue faculty in 1992 after a 39-year career 
in industry, government and academia. His positions included: vice 
president of technical resources and of science and technology for TRW 
Inc. (1980-92); deputy under secretary of defense for research and 
engineering (1979-80); director, Office of Materials Science, DARPA 
(1976-79); professor of nuclear materials, MIT (1970-76); manager, 
Fuels and Materials Department and the Metallurgy Research Department, 
Battelle Northwest Laboratories (1965-70); and senior research 
associate, General Electric Co. (1954-65). He has also been a director 
of Keithley Instruments Inc. and the Lord Corp. and a member of the 
Science and Technology Advisory Committee for the Howmet Corp., a 
division of ALCOA.
    He has earned numerous awards and served in diverse government 
advisory roles, including: head of the NIST Visiting Committee on 
Advanced Technology; head of the advisory committee for NIST's Advanced 
Technology Program; member of the Board of Overseers for the Malcolm 
Baldrige National Quality Award; chair of the Commission for 
Engineering and Technical Studies and the National Materials Advisory 
Board of the National Research Council; and member of the Space Station 
Utilization Advisory Subcommittee and the Commercialization and 
Technology Advisory Committee for NASA. He has consulted for the 
Department of Energy's Argonne National Laboratory and the Idaho 
National Engineering and Environmental Laboratory.
    Dr. Bement holds an engineer of metallurgy degree from the Colorado 
School of Mines, a master's degree in metallurgical engineering from 
the University of Idaho, a doctorate in metallurgical engineering from 
the University of Michigan, and honorary doctorates from Cleveland 
State University, Case Western Reserve University, and the Colorado 
School of Mines, as well as a Chinese Academy of Sciences Graduate 
School Honorary Professorship. He is a retired Lieutenant Colonel of 
the U.S. Army Corps of Engineers, and a recipient of the Distinguished 
Service Medal of the Department of Defense.

    Chairman Lipinski. Thank you, Dr. Bement. Actually I was 
sitting here and looking at the two of you and then to my right 
and my left, and I noticed no one is going to be around. I was 
getting a little concerned, and Ms. Fudge came in and I felt a 
little bit better. Hopefully I will be here come next January. 
I am planning on it.
    Dr. Beering, I recognize you.

STATEMENT OF DR. STEVEN C. BEERING, CHAIRMAN, NATIONAL SCIENCE 
                             BOARD

    Dr. Beering. Thank you, Chairman Lipinski, Ranking Member 
Ehlers and Members of the Subcommittee. I appreciate the 
opportunity to testify. I am Steven Beering, Chairman of the 
National Science Board and President Emeritus of Purdue 
University. I am particularly pleased to be here with my valued 
colleague, Dr. Arden Bement, and I am honored to represent the 
members of the National Science Board before you today.
    Congress established the National Science Board in 1950 and 
gave it dual responsibilities, first, to establish and oversee 
the policies for the National Science Foundation, and second, 
to serve as an advisory body to the President and Congress on 
national policy issues related to science, engineering research 
and education. We applaud your continuing support for NSF and 
your commitment to sustaining U.S. leadership in science and 
technology.
    The United States has long been a leading center of science 
technology and innovation but we now face challenges to our 
leadership as a result of growing capacity in science and 
technology across the globe. Recent data in our biannual 
statistic report, Science and Engineering Indicators 2010, 
convey an important story. Many countries and economies have 
taken steps to open their markets to trade and foreign 
investment, develop their S&T [Science and Technology] 
infrastructures, stimulate industrial R&D, expand their higher 
education systems and build indigenous R&D capabilities. In 
short, they are developing strategic plans and policy framework 
for increasing science and technology capacity and they are 
investing in the infrastructure and workforce necessary to 
achieve their objectives. In particular, we are seeing that 
China and other Asian countries may pose an ever-greater future 
challenge to U.S. preeminence in terms of overall R&D 
investment and students and researchers involved in S&T 
activities. While the number of degrees granted does not 
provide information on the quality of the students obtaining 
them, in 2006 China awarded nearly as many doctoral degrees as 
the United States and may have since surpassed the United 
States.
    Increased global R&D activity should by no means be viewed 
as negative, however. It leads to a dynamic global system of 
exchange of scientific knowledge and collaboration among the 
various researchers and provides opportunities to build shared 
international programs. However, this also means that the 
United States must continue to support robust investments in 
science and technology.
    This year's budget request for science and technology 
agencies acknowledges the critical nature of S&T to America's 
long-term economic growth. Federal support for research and 
education across S&E [Science and Engineering] fields is of 
special importance in tight economic times when private firms 
are hesitant to invest in R&D projects whose economic benefits 
may not be immediate. The President's NSF [National Science 
Foundation] budget request of $7.4 billion reflects a clear 
understanding that investments in S&T are not luxuries. Rather, 
they are critical investments to fund the research and 
innovation that will build our future.
    Funding for NSF's Agency Operations and Award Management, 
the so-called AOAM account, continues to be a top priority for 
our Board. This account represents the majority of the funding 
devoted to agency operations. In fiscal year 2010, the 
President's request for an AOAM increase of 8.3 percent was 
reduced to only two percent. Robust human and physical 
infrastructure and management are critical to support NSF's 
gold standard merit review process. The Board urges your full 
support for this year's request for the AOAM account.
    The Board has recently identified priorities over the next 
12 to 24 months. They are grantee data policies at NSF, mid-
scale research efforts, and revisiting the NSF merit review 
criteria. Each of these studies will examine issues of high 
importance to NSF, and the Board intends to provide its 
substantive guidance at the conclusion of each study. Brief 
summaries of these topics are provided in my written testimony.
    In conclusion, the Board urges that the Congress fund in 
full the President's budget request for the National Science 
Foundation. As our Nation recovers from economic recession, 
investment in S&E research and education are ever more critical 
to laying the long-term foundation for S&T-based innovation 
that drives the creation of new jobs and industries. The 
economic growth and the quality of life that we enjoyed in the 
20th century were made possible in large part by scientific 
discoveries and technologic innovations. Continued economic 
prosperity and improvements in the American quality of life 
will require continued and indeed enhanced Federal commitment 
to investing in S&E research and education.
    Mr. Chairman, after nearly eight years on the Board and 
serving for the last four years as Chairman, my term is about 
to end in May. On behalf of the National Science Board and the 
S&E research and education communities, I want to thank you, 
the Members of the Subcommittee, for your long-term support for 
the National Science Foundation. Thank you.
    [The prepared statement of Dr. Beering follows:]
                Prepared Statement of Steven C. Beering
    Chairman Lipinski, Ranking Member Ehlers, and Members of the 
Subcommittee, I appreciate the opportunity to testify before you today. 
I am Steven Beering, Chairman of the National Science Board and 
President Emeritus of Purdue University.

National Science Board

    I am honored to represent the members of the National Science Board 
before you today. Congress established the National Science Board in 
1950 and gave it dual responsibilities:

        `  Oversee the activities of, and establish the policies for, 
        the National Science Foundation (NSF)

        `  Serve as an advisory body to the President and Congress on 
        national policy issues related to science and engineering (S&E) 
        research and education.

    The National Science Foundation is the primary source of funding 
for academic basic research across non-biomedical science and 
engineering disciplines. NSF funds cutting-edge research at the 
frontiers of knowledge, and also supports scientific facilities and 
activities in science, technology, engineering, mathematics (STEM) 
education. We applaud your continuing support for NSF and your 
commitment to sustaining U.S. leadership in science and technology.

Concerns for American Science Leadership from Science and Engineering 
                    Indicators 2010

    The United States has long been a leading center of science, 
technology, and innovation, but we now face challenges as a result of 
growing capacity in science and technology (S&T) across the globe. 
Economists increasingly emphasize the central role of knowledge, 
particularly R&D and other activities to promote science and 
technology, in a country's economic success.\1\ But as recent 
indicators show us, in our biennial statistical report, Science and 
Engineering Indicators 2010 (SEI 2010), many countries and economies 
have taken steps to open their markets to trade and foreign investment, 
develop or recast their S&T infrastructures, stimulate industrial 
research and development (R&D), expand their higher education systems, 
and build indigenous R&D capabilities. In short, they are developing 
strategic plans and policy frameworks for increasing S&T capacity, and 
investing in the requisite infrastructure and workforce to achieve 
their objectives. And while the EU and Japan continue to be major 
players in S&T, China and other developing nations are rapidly building 
S&T capacity.
---------------------------------------------------------------------------
    \1\ National Science Board (NSB). 20I0. Science and Engineering 
Indicators 2010 (NSB-10-01), p. 6-7.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    While the United States continues to be by far the largest R&D-
performing country in terms of absolute dollar investment, China and 
other Asian nations are rapidly increasing their R&D investments. 
Between 1996 and 2007, China increased its R&D expenditures at a 20 
percent annual growth rate from a substantially lower base, while the 
United States and other mature S&T countries averaged about a 5 to six 
percent annual growth rate from a higher base. As a result, relative 
regional investments in R&D changed markedly: the North American 
region's (United States, Canada, and Mexico) share of estimated world 
R&D activity decreased from 40 to 35 percent; the European Union's 
share decreased from 31 to 28 percent. These declines in global R&D 
share reflect the Asia/Pacific region's increase from 24 to 31 percent, 
with most of that increase contributed by countries other than Japan.
    China and other Asian countries also pose a challenge to U.S. 
preeminence in terms of students and researchers involved in S&T 
activities. On both indicators, China's absolute numbers have increased 
in recent years. As SEI 2010 points out, the number of S&E doctorates 
awarded in China rose from about 1,900 in 1993 to almost 23,000 in 
2006, more than a 12-fold increase. While the number of degrees granted 
does not provide information on the quality of the students, in 2006 
China awarded nearly as many doctoral degrees as the United States, and 
may have since surpassed the United States.\2\
---------------------------------------------------------------------------
    \2\ NSB. p. 2-35.
    
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    

    Between 1995 and 2007, the number of researchers in China more than 
doubled from about 0.5 million to more than 1.4 million, an increase in 
world percentage from 13 to 25 percent. In comparison, the number of 
researchers in the United States and the EU grew by an annual rate of 
about three percent over the same time period. China's publication 
volume increased by about 14 percent annually over the period 1995 to 
2008, moving it into 2nd place behind the United States, up from 14th 
place in 1995.\3\
---------------------------------------------------------------------------
    \3\ NSB, p. 5-5.
---------------------------------------------------------------------------
    Increased global R&D activity should by no means be viewed as 
negative. It leads to a dynamic global system of exchange of scientific 
knowledge and collaboration among diverse researchers, and provides 
opportunities to build shared international facilities. However, the 
United States must view increased global capacity in S&T as a call to 
sustained action to continue robust investments in science and 
technology.

FY 2011 Budget Request

    This year's budget request for science and technology agencies 
acknowledges the critical nature of science and technology to America's 
long-term economic growth. Federal support for research and education 
across science and engineering fields is of special importance in tight 
economic times, when private firms are hesitant to invest in R&D 
projects whose economic benefits may not be immediate. Funding the 
National Science Foundation at the FY 2011 budget request level is 
essential to our nation's continued prowess in S&T-based innovation, 
economic prosperity, and high quality of life.
    The President's NSF budget request of $7.4 billion reflects the 
clear understanding that investments in science and technology are not 
luxuries but rather critical investments to fund the research and 
innovation that will build America's future. If approved, this 6.9 
percent increase in real terms, 8.0 percent in current dollars, above 
the 2010 funding level, would put NSF on track to double its budget in 
ten years, as part of the President's Plan for Science and Innovation 
and roughly consistent with the America COMPETES Act.
    The request for the National Science Board is $4.84 million, an 
increase of $300,000, or 6.6 percent, over the FY 2010 budget of $4.54 
million., This increase will allow the Board to continue to strengthen 
its role in policy for NSF and in advising the President and Congress 
on significant national policy issues in science and engineering and 
education in science and engineering.
    Funding for NSF's Agency Operations and Award Management (AOAM) 
account continues to be a top priority for the Board. This account 
represents the majority of the funding devoted to agency operations. In 
FY 2010, the President's budget request for NSF for an ADAM increase of 
8.3% was reduced to only 2%. For NSF to continue to serve our nation, 
we must have adequate human and physical infrastructure and management. 
The quality of the merit review process greatly depends upon NSF having 
staff with the necessary expertise, within and across disciplines, to 
select and recruit superior reviewers and panelists. To sustain 
excellence in merit review, the Board urges full support of the request 
for the ADAM account.
    Now, I wish to address several topics raised by Chairman Lipinski.

National Science Board Priorities

    The Board has recently identified priority areas to explore over 
the next 12 to 24 months: grantee data policies at NSF, multi-
investigator and multi-scale research efforts supported by NSF, and 
revisiting the NSF merit review criteria. Each of these studies will 
examine issues of high importance to NSF, and the Board intends to 
provide substantive guidance to the agency at the conclusion of each 
study. Below are brief summaries of the topics.

1. Data Policies

    Increasing ease of gathering massive amounts of data and of use of 
large-scale collaborative projects has made it a priority to consider 
NSF data policies. The Board will examine how NSF data policies govern 
how data collected in NSF-supported projects should be managed and 
shared, to ensure broad, timely, and long-term data availability and 
accessibility. The Board's study will build upon its 2005 report, Long-
Lived Digital Data Collections: Enabling Research and Education in the 
21st Century (NSB-05-40). Although the initial focus of the study will 
be NSF's data policies, the Board hopes to use this study to engender a 
discussion of the topic in a broader Federal context.
    Several policy questions will be considered, including:

        `  How can NSF most effectively develop cyberinfrastructure 
        that supports the data acquisition, accessibility, 
        manipulation, and storage needs of the broad scientific 
        community, particularly at NSF funded large facilities and 
        distributed networks that generate extremely large amounts of 
        raw data?

        `  Is there a way to capitalize on cyberinfrastructure 
        investments made and lessons learned among multiple NSF 
        facilities facing similar data issues?

        `  What role, if any, should NSF play in managing and ensuring 
        the long-term availability and accessibility of data--
        particularly digital data?

        `  How should data collected with NSF funding be managed and 
        shared to ensure openness?

2. Multi-Investigator and Mid-Scale Research

    NSF utilizes a variety of mechanisms to facilitate research at the 
frontiers of knowledge (e.g. cooperative agreements, centers, programs 
linking industry and academia, and MREFC projects). In light of the 
ever-increasing size and complexity of research projects, the Board 
plans to examine the adequacy of its support frameworks for mid-scale, 
multi-investigator research. Research projects that cost approximately 
$10 to $100 million (larger than average awards, but smaller than MREFC 
projects), and are conducted by multiple investigators and sometimes 
encompass multiple disciplines, are the subject of this study.
    In broad terms, the Board plans to examine NSF's current efforts in 
supporting mid-scale research activities, and explore the best means 
for doing so in the future.

3. Merit Review Criteria

    All NSF proposals are evaluated with respect to two equally 
important merit review criteria--intellectual merit and broader 
impacts. These merit review criteria were established in 1997 to 
replace a four-criteria system, in which reviewers evaluated researcher 
performance competence, intrinsic merit of the research, utility or 
relevance of the research, and effect on the infrastructure of science 
and engineering.
    The Board last reviewed the NSF merit review in the mid-2000s, at 
the request of Congress. The Board issued a report in September 2005, 
concluding that the NSF merit review process is fair and effective, and 
``remains an international `gold standard' for review of science and 
engineering research proposals.''
    The Board intends to reevaluate the two current merit review 
criteria and decide whether to retain the current criteria or to 
consider some degree of enhancement. As part of this reevaluation, the 
Board intends to examine, among other issues, whether enhancements 
could be made to clarify the meaning and appropriate responses 
concerning ``transformative research'' for the first criterion, and 
``broadening participation'' for the second criterion.

NSF Investment in Research Infrastructure

    In addition to its examination of NSF multi-investigator and mid-
scale research, the Board has created a new subcommittee to focus on 
facilities. Recognizing the need to address the issue of strategic 
facility planning across NSF, the Board last year established the 
Subcommittee on Facilities (SCF) under its Committee on Strategy and 
Budget (CSB), with responsibility for providing guidance on strategic 
planning for the entire NSF research equipment and facilities 
portfolio. SCF activities include undertaking an annual review of the 
portfolio of all NSF-funded research facilities (including facilities 
funded under Research and Related Activities account). This annual 
review will allow SCF to provide to CSB and the Board a clear 
assessment of the impact that specific projects and the overall 
facilities portfolio will have on long-term budget planning at NSF, and 
recommend to CSB and the Board guidance to be provided to NSF 
management on the prioritization of all projects that have completed a 
Conceptual Design Review (CDR) and are being considered for further 
funding to develop Preliminary Designs. This committee is established 
under the auspices of CSB to allow for full discussion of NSF's 
research infrastructure investments relative to the agency's other 
types of research investments. Its intent is to maintain Board focus on 
all phases of facilities--design, development, construction, 
operations, and decommissioning.
    The MREFC account supports the acquisition, construction, and 
commissioning of major research facilities to provide unique 
capabilities at the forefront of science and engineering research. 
There are several distinct phases in the NSF process for 
conceptualizing, planning, and constructing MREFCs: conceptual design 
stage, preliminary design (Readiness) stage, and final design stage. 
The Board is involved in the process at two key critical design 
points--following preliminary design review (PDR) and final design 
review. The Board is exploring with NSF how the Board may best be 
involved in selecting projects that advance towards the Readiness 
stage.
    During the Readiness stage, a Preliminary Design is developed and 
vetted through a formal PDR by the MREFC panel (composed of all NSF 
Assistant Directors, Office Heads, and the Deputy Director) and outside 
experts. The Preliminary Design is generally used as the baseline 
project definition when requesting Congressional appropriation of 
construction funds. If the PDR judges the preliminary design to be of 
high scientific merit and construction readiness, the MREFC panel 
recommends to the Director that the Board consider advancing the 
project to the Proposed New Starts category of facilities for inclusion 
in a future President's budget request. The Board votes up-down to 
advance the project to the Final Design Stage.
    During the Final Design Stage, the project continues its pre-
construction planning, and NSF conducts annual cost review updates, 
with results reported to the Board. A Final Design Review (FDR) is 
conducted to ensure that the project is aligned with the appropriated 
budget, if such budget is successfully attained through the 
Congressional appropriation process. The FDR also considers whether the 
underlying assumptions about the project continue to be valid, and 
whether the project is fully ready to undertake construction activity. 
Following the FDR, the Board is asked to approve the obligation of 
MREFC funds (if Congress has appropriated funding for the project) to 
begin construction.
    Facility operating costs are considered in the context of deciding 
whether to undertake construction of a new facility under the MREFC 
account. Projects are repeatedly assessed throughout the planning and 
construction period to ensure accurate awareness of projected operating 
costs. Beginning with the NSF FY 2009 budget request, the NSF Director 
instituted a no cost overrun policy requiring that the project cost 
estimate at PDR include adequate contingency to cover all foreseeable 
risks, and that any cost increases not covered by contingency be 
accommodated by scope reduction. Since implementing the policy for new 
facilities, NSF has been successful at staying within cost and schedule 
plans.

Reauthorization of America COMPETES Act

    The Board has several operational issues related to staffing, 
ensuring timely information for S&E Indicators, and in defining a 
quorum for gatherings outside of plenary sessions. Ongoing discussions 
with Subcommittee staff should help resolve these important issues.

Closing Remarks

    The Board urges that Congress fund in full the President's budget 
request for the National Science Foundation. As our nation recovers 
from economic recession, investments in science and engineering 
research and education are ever more critical to laying the long-term 
foundation for S&T-based innovation that drives the creation of new 
jobs and industries. The economic growth and the quality of life that 
we enjoyed in the 20th century were made possible in large part by 
scientific discoveries and technological innovations. Continued 
economic prosperity and improvements in the American quality of life 
will require a continued, and indeed enhanced, Federal commitment to 
investing in science and engineering research and education.
    Mr. Chairman, after seven years on the Board and serving for the 
last four years as Chairman, my term is about to end in May. On behalf 
of the National Science Board and the S&E research and education 
communities, I would like to thank the Members of the Subcommittee for 
your long-term recognition of and commitment to support for the 
National Science foundation.

                    Biography for Steven C. Beering

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    Steven C. Beering received B.S. and M.D. degrees and an honorary 
Doctor of Science degree from the University of Pittsburgh. Before 
becoming President of Purdue in 1983, he served for a decade as Dean of 
Medicine and Director of the Indiana University Medical Center. He 
holds appointments as professor of medicine at Indiana University and 
professor of pharmacology at Purdue University. He retired from the 
Purdue presidency in 2000.
    He served on active duty with the USAF Medical Corps from May 1957 
to June 1969, achieving the rank of lieutenant colonel.
    Beering has held numerous national offices, including the 
chairmanship of the Association of American Medical Colleges and the 
Association of American Universities. He is a former regent of the 
National Library of Medicine.
    He is also a Fellow of the American College of Physicians and the 
Royal Society of Medicine, a member of Phi Beta Kappa, the Institute of 
Medicine of the National Academy of Sciences, and the Indiana Academy.
    He serves on a number of national and corporate boards, including 
NiSource Inc., Central Indiana Corporate Partnership, Inc., Community 
Foundation of Northern Indiana, and Marquis Who's Who. He is a Trustee 
of the University of Pittsburgh, and the Universities Research 
Association, and is Director Emeritus of the Purdue Research 
Foundation.
    Beering was appointed to the National Science Board in 2002, 
reappointed in 2004, and elected Chairman in 2006.

    Chairman Lipinski. Thank you, Dr. Beering, and at this 
point we are going to begin our first round of questions, and 
the Chair will begin by recognizing Dr. Baird.
    Mr. Baird. Thank you, Mr. Chairman. I want to echo the 
sentiments of the Chairman in thanking both of these 
distinguished public servants for their many years of service 
in their prior positions and their extensive contributions to 
science. We are grateful, and you have made a real difference, 
and personally speaking, it has been a real privilege to get to 
know you and to work with you, and for that matter, with the 
entire board and the staff of NSF. One of the difficult things, 
I am sure, for Dr. Ehlers and me as we contemplate our own 
departure from this institution, is leaving this committee that 
we are so passionate about, and we will look forward to working 
with you in some capacity in the future.
    Dr. Bement. Thank you very much.
    Mr. Baird. I will make a commercial announcement to my 
colleagues. Last night I had the privilege of going to the 3D 
Hubble film, the world premiere of this at the Air and Space 
Museum, and if you have not seen this, because it just 
premiered last night, make it a point to do this. If you want 
to feel great about American science and technology and 
engineering and just can-do spirit, that film is a must-see. 
And I commend both of you and the Administration for 
recognizing through this budget the importance of funding our 
scientific endeavors adequately.
    I want to ask a little bit about your thoughts on--as you 
know, I was very active and continue to be so on the issue of 
global science, and talk to us a little bit about how you see 
this budget and various programs within it fitting into efforts 
for science diplomacy. Dr. Beering, you mentioned a little bit 
about the importance of international exchange of ideas. Share 
with us how this budget and your plans for the future for the 
agency reflect science diplomacy issues.
    Dr. Bement. Yes. Thank you, Mr. Baird. The intention in 
bringing the Office of International Science and Engineering up 
to the Director's office was to make it more strategic in 
position for budget growth. I am proud to say that over the six 
years I have been in the Foundation, the budget has grown quite 
substantially compared with the average growth of the agency as 
a whole. We have introduced new programs. The PIRE program, 
which goes beyond the investigator-to-investigator 
collaboration to institution-to-institution collaboration, that 
has been a huge success. Our success rate is still too low so 
we need to bring up the funding over time. Nevertheless, the 
transformative research that is being done under these 
international collaborations is critically important, and it 
keeps us abreast of not only where scientists abroad see the 
frontier, but also in developing new synergies to do not only 
interdisciplinary research but also research that can really 
make a major difference.
    The other initiative that--a couple other initiatives. One 
is, we have developed a relationship with USAID [U.S. Agency 
for International Development]. As you know, we are a domestic 
agency so we don't fund research projects abroad, but in the 
developing world, there is a need to provide some assistance so 
that their research can match our research as we fund our part 
of the research initiative. We are working closely with USAID. 
We have found some projects that fit their interest that will 
allow us to move forward. We hope that the numbers will 
continue to increase over time. In the President's Muslim 
Majority Initiative, we have allocated $2.5 million to provide 
support for summer institutes, for exchanges of post-docs, 
graduate students and so forth in order to improve the 
engagement in those countries around the world.
    So those are some new steps that we are taking, and as I 
look forward to the future, I see that NSF's leadership and 
international engagement will only increase.
    Mr. Baird. Dr. Beering, did you wish to comment on that at 
all?
    Dr. Beering. Some while ago, I had a chance to be in Europe 
and attend an anniversary celebration of the European Union, 
and the Secretary General wanted to reassure me that he was not 
interested in our dollars, but what he was interested in, they 
were all sharing in that sentiment as I discovered over the 
ensuing days, was a partnership of ideas and a partnership of 
effort, and I believe they are quite sincere in that and I 
believe that our new project emphasis is going to help that.
    Mr. Baird. Dr. Bement, thank you. Did you want to----
    Dr. Bement. I can add a footnote. We have also sought 
cooperation and partnerships with private funding agencies--not 
agencies but organizations like the Gates organization, and we 
have together with the Gates Foundation, the Bill and Melinda 
Gates Foundation, established a new initiative called the BREAD 
initiative [Basic Research to Enable Agricultural Development], 
which is basic research in agriculture in the developing world, 
primarily to focus on small holder agriculture to make it 
economically viable in those parts of the world. This is the 
kind of relationship, similar to USAID, where the National 
Science Foundation will pay for the U.S. scientists and the 
Bill and Melinda Gates Foundation will pay for the in-country 
scientists to enable the collaborative work to proceed.
    Mr. Baird. That is a great partnership. Thank you very 
much. Thanks, Mr. Chairman.
    Chairman Lipinski. The Chair will now recognize Dr. Ehlers.
    Mr. Ehlers. Thank you, Mr. Chairman, and I join in 
expressing my appreciation to both of you for your long and 
good service for the Federal Government, and I never realized 
before how making boilermakers could develop such wide-ranging 
skills.
    Dr. Bement. It is more of a drink than a skill.
    Mr. Ehlers. Well, I wouldn't know anything about that. My 
only vice is tea.
    Just following up on the comments made by Dr. Baird, a 
quick question. When I came here a long time ago, I was 
surprised at the lack of scientific interest in the Department 
of State and the lack of scientific aides there, and managed to 
correct that through the Unlocking the Future Report so we have 
had some good people there since. On the international issues 
and the diplomatic part, do you think that the Department of 
State at this point is fulfilling what should be done, or 
should they increase their staff or their funding for their 
effort to take your ideas, the NSF ideas and make things run 
more smoothly?
    Dr. Bement. First of all, I think that State has done a 
very good job in trying to become better connected with the 
scientific community at large, and also to employ scientists in 
their programs in science diplomacy. The first step was 
establishing a Science Advisor to the Secretary. That has been 
a very powerful position, not only in developing a network to 
the scientific community, but also in establishing programs 
like the Jefferson Fellows that bring top talent from U.S. 
universities to work in the State Department in very important 
roles all around the world. Those scholars are very well 
regarded and they do very important work, and we see some of 
that work through our own offices in Beijing, Tokyo and Paris, 
and we have been able to establish a relationship to that 
network. I think it is also represented in the quality of some 
of the people they are bringing in to key posts, some political 
positions that have scientific backgrounds. So I think over 
time it is going to be an increasing recognition of the 
importance of science diplomacy, not science directed by 
diplomacy but diplomacy opportunities resulting from science.
    Mr. Ehlers. Thank you. I am glad to hear that optimistic 
report.
    Getting back to the point I made during my opening comments 
about the Administration's $3.7 billion dollar historic 
commitment, as the President labeled it, in K-12 STEM 
education, I certainly welcome this effort but my concern is, 
what role will NSF be playing in this? Were you contacted? Were 
you in discussions with the Office of Management and Budget on 
this and on the allocation? What have you done up to this point 
and what has Secretary Duncan done up to this point to develop 
a good working relationship to try to make sure that we have 
two departments--I am sorry, an agency and a department working 
in complete concert to achieve their goals?
    Dr. Bement. Well, I would like to say to start with that I 
think we have gotten rid of all the old tapes. I just hope that 
that will be better recognized. Having top officials from the 
Chicago School District that has so well represented NSF 
programs in their transformation gives us an opportunity to 
talk real terms about the role of research and the NSF program 
as we seek continued partnership with the Department of 
Education so that Secretary Duncan, Administrator Easton and 
others are very close partners with the NSF at the present time 
and we are seeking new ways to collaborate. We have new 
programs, for example, IES, the Institute of Education 
Sciences, and are carrying out joint assessments of teacher 
proficiency, and teacher proficiency in math, and also teacher 
proficiency in STEM across the board including science. There 
are other initiatives that we are thinking about doing jointly 
including continuing the close working relationship we have had 
with the MSP [Math and Science Partnership] program, or in the 
case of education, Department of Education, their new program 
based on the Math and Science Partnership program.
    There are three priorities that the Administration has 
delineated for the National Science Foundation. One is to 
prepare the STEM workforce, which is very broad. That includes 
broadening participation. The second is increasing the number 
of graduate fellows to triple the number of new fellowships by 
2013. And the third is to expand evaluation activities to build 
capacity tools and methods. So in the 2011 budget, the two 
programs that we especially wanted to pay attention to are the 
ones that are research-intensive, namely the Math and Science 
Partnership program and also the Discovery Research K-12 
program. Now, you will recognize that in the Recovery Act bill, 
there was $85 million that was allocated for the Noyce program 
and the Math and Science Partnership program. If you take into 
account that the base for K-12 investment though the Foundation 
which includes both the EHR component and the R&RA component, I 
think conservatively would be about $250 million across the 
board. Even though we only report about $57 million, it is 
considerably greater. If you take the $85 million invested 
through the Recovery Act, most of which are in--all of which 
are in standard grants and will spend out over the next three 
to five years, against that $250 million base, that represents 
a 35 percent increase. If you take the average of four years, 
that would represent about an 8.5 percent increase per year in 
K-12 education across the board. We felt it was prudent, 
recognizing that we also have to plan for renewals, that in 
2011 we would have to hold back a little bit or pause a little 
bit, and then prepare to grow in the outyears. So we feel that 
K-12 education is robust. We are putting much more focus on 
research. That will be through program realignment. It will 
also be through staffing. We feel that that is not only the 
long suit of the National Science Foundation but the most 
important role that we can play in trying to upgrade K-12 
education both in math and in science.
    Mr. Ehlers. Well, I hope our successors can continue that 
string. I just want to make sure that the money is allocated 
fairly, in this case $1 billion for STEM education. I want to 
make sure it is allocated properly between the NSF and the 
Department of Education.
    Dr. Bement. I appreciate that very much.
    Mr. Ehlers. Thank you. Yield back.
    Chairman Lipinski. Thank you, Dr. Ehlers.
    The Chair now recognizes Ms. Fudge.
    Ms. Fudge. Thank you, Mr. Chairman.
    I thank both of you for your service and thank you for 
being here today. I have really two questions.
    The first one, Dr. Bement, how do you reconcile the 
Administration's commitment to improving STEM education when 
the majority of programs in the Education and Human Resources 
directorate will be flat funded or even decreased and the 
directorate overall will receive only a 2.2 percent increase in 
fiscal year 2011? Of particular interest to this committee, 
which you have just briefly touched on, the Noyce teacher 
scholarship program and the Math and Science Partnerships 
program that we expanded in the 2007 COMPETES Act. Both of 
these programs have demonstrated success. Shouldn't we be 
pouring as much money as we can into sure bets such as these 
two programs?
    Dr. Bement. Well, again, I refer back to the impact that 
the Recovery Act has had on that program, both the Noyce and 
the Math and Science Partnership program. There was an 
enrichment or an infusion of significant funding to really 
increase the number of awards in those two programs, and we 
will continue to use that as the flagship to grow those 
programs as the NSF budget continues to increase. So I think we 
are very well positioned in both Math and Science Partnership 
and the Noyce program looking out over the next two or three 
years. We have got any number of awards already in place as a 
result of the Recovery Act that will boost the outcomes from 
those investments.
    Ms. Fudge. Okay, but we know the Recovery Act is only going 
to last so long, so----
    Dr. Bement. Well, as I say, we made standard grants that 
will spend out over three to five years, so it is not just a 
short-term investment, it is a long-term investment. So as we 
continue to grow our budget overall, we will continue to boost 
those programs, but for one or two years we are sort of holding 
back a little bit so that we can meet the renewal commitments 
and obligations of the awards we have already made.
    Ms. Fudge. Thank you. My next question: the Department of 
Education's Office of Educational Technology recently released 
the report ``Transforming American Education: Learning Powered 
by Technology.'' In the report released on Friday, the National 
Educational Technology Plan Working Group draws guidance from a 
2008 report from NSF's Task Force on Cyberlearning and makes 
several policy recommendations for the Department of Education, 
some of which include collaboration with the National Science 
Foundation. I see that NSF is proposing to establish the 
Cyberlearning Transforming Education [CTE] program, funded at 
$41 million. How do you see this program cooperating with and 
supporting efforts at the Department of Education and who will 
be responsible for the assessments and/or evaluation of these 
programs?
    Dr. Bement. First of all, Cyberlearning Transforming 
Education is highly responsive to the report you made reference 
to and it is an exciting area that we feel has a lot of 
opportunity in upgrading education. But it is a multi-level 
investment. It is not just K-12, it is also undergraduate 
education, graduate education and even post-doc education. With 
regard to K-12 and undergraduate education, we have already a 
close working relationship with the Department of Education, 
and as I indicated, through the Institute of Education 
Sciences, we have joint initiatives underway to do assessments 
of teacher proficiency both in math and science, and included 
in that, when the CTE program comes into effect, will be the 
evaluation of the effectiveness of that education as well. One 
thing that we feel has to be paid attention to is not just the 
research but the scaling of the outcomes of the research. In 
other words, how do you build a brushfire? How do you take the 
results from a few districts and extend them throughout the 
country? We can only do the scaling and the transferring of 
those best practices through close cooperation with the 
Department of Education and states, because of the 15,000 
school districts in the country, we can touch about 250. And we 
can develop the best practices and do the research but we have 
to reach the other 15,000 school districts, and that is where 
partnerships with both the Department of Education and the 
state departments of education are vitally important.
    Ms. Fudge. Thank you, Mr. Chairman.
    Chairman Lipinski. Thank you, Ms. Fudge.
    The Chair now recognizes Mr. Inglis.
    Mr. Inglis. Thank you, Mr. Chairman, and Dr. Bement, thank 
you for your work at NSF. We are grateful for the years of 
service you have had there, and I understand this is perhaps 
your last hearing with us so we are----
    Dr. Bement. I fear that may be the case. I don't hope that 
that is the case.
    Mr. Inglis. Well, we very much appreciate your work, and 
perhaps on the way out you can give us some advice. You know, 
at NSF, it is scientific endeavors that you are all about 
there, ongoing and constant. In politics, things come and go, 
you know, and we were all jazzed up about gas at $4 a gallon. 
Now you can't find a story about gas at $4 a gallon. But I 
think it is pretty clear that as soon as the recovery takes 
off, given the inelastic supply curve, we are going to jump on 
the price again as the demand rises and we will be squawking 
once again about energy prices.
    Do you have any suggestions for us about how to maintain a 
steady and persistent drive to energy independence and how it 
would be that we should be funding scientific endeavors in that 
way?
    Dr. Bement. Well, I would like to comment on your point, 
and that is, the reality that we have to cope with in society 
is variability around the mean, and it is a question of what 
the periodicity is of that variability, whether it is in terms 
of a couple years or whether it is a decade or whether it is 
longer than a decade, and energy, carbon-based fuel 
availability, whether it is natural gas, oil, depends on the 
finding rate as well as the consumption rate and there will be 
variability around the mean. Same thing in climate change. We 
had a cold winter so everyone feels that climate change has 
gone away. Well, they don't remember that about four years ago 
in Europe they had a heat spell that killed about 2,000 people. 
So, you know, those are variable.
    But you have to pay attention to the mean. The only way you 
can really address that is to understand it better and develop 
new knowledge about what is really driving change, what the 
forcing functions are, so to speak. It also is important that 
you develop new options, because if you are limited in the 
number of options, then you are going to have to pay the 
consequence of having to live with change as it occurs. Now, 
that is one of the roles that the National Science Foundation 
can play through our SEES [Science, Engineering and Education 
for Sustainability] initiative and other initiatives that we 
are working on to work at a higher level of complexity, higher 
level of modeling, and rather than looking at change in a 
century, trying to understand change over a decade. But rather 
than looking at change on a global basis, look at change on a 
regional basis. That will take more computation. It will take 
more research. It will take better understanding of complexity. 
It will have to require the understanding of all the 
interrelationships involved, and they are very complex 
interrelationships. But the greatest benefit, I think, to 
society is, again, to offer up more technological options that 
one can choose from, from a public policy point of view.
    Mr. Inglis. And sort of related to that, science has taken 
a big hit recently on the pages of a lot of newspapers with the 
``Climate-gate'' e-mails. Any comments about how to restore the 
credibility of science and to help people understand that, 
suppose there are quacks, for example, in the cancer field but 
if you get diagnosed today with cancer, perhaps you want to go 
see somebody in the field. You don't want to abandon the field. 
How do we persuade people that, really, scientific processes 
still work and that we have integrity there?
    Dr. Bement. I think with the issues that we are talking 
about which are highly complex, there is still not yet complete 
science convergence or consensus on some of the aspects of that 
change. So we have almost too much ambiguity or perhaps too 
much objectivity, if you will, in the data that currently 
exist. I think in that kind of scenario, where you are dealing 
with very complex issues, for scientists to take an advocacy 
position and take a piece of the science in order to support 
their advocacy position does not do service to not only the 
community of science but the public at large. I think being an 
honest broker and looking at all the options and objectively 
presenting the options is a much better course of action, and I 
think we have seen some of the consequences of being an 
advocate for a particular scientific position.
    Mr. Inglis. Thank you, Dr. Bement, and thank you for your 
service. We really are very appreciative.
    Dr. Bement. Thank you, Representative Inglis. It has been 
fun working with you.
    Mr. Inglis. Thanks.
    Chairman Lipinski. Thank you, Mr. Inglis.
    The Chair now recognizes Mr. Carnahan.
    Mr. Carnahan. Thank you, Mr. Chairman, and welcome to you 
both. I appreciate your service. I appreciate what you have 
done to promote science in this country and appreciate also the 
work that Chairman Baird has done on a group looking at ways 
how we can improve what we do with science diplomacy. I think 
it is very important for us moving forward in terms of building 
our international relations.
    But the question I wanted to ask you today had to do with 
the proposed consolidation plans for broadening participation 
in terms of the consolidated approach versus the portfolio 
approach, in terms of reaching out to different undergraduate 
groups of the individual programs that have been out there for 
Historically Black Colleges, the Stokes Minority Participation 
program, tribal colleges, Hispanic-Serving Institutions. Can 
you describe in more detail how you believe consolidating those 
under a program is going to help build capacity and add value, 
because, absolutely, I believe it is critical that we build 
that capacity.
    Dr. Bement. Yes. Thank you, Mr. Carnahan. The goal of the 
program is really twofold. One is to capitalize on what has 
been learned from the currently targeted programs in broadening 
participation, but also to position the program for growth, and 
the reason that is so critical is that time is not favorable. 
By 2020, minorities will represent 39 percent of the population 
so they will represent a very large base for developing STEM 
talent for the Nation, which by 2050 will be a majority of 
minorities. So we have to find ways to accelerate. Linear 
growth is no longer acceptable. We have to have positive 
feedback and we have got to go into geometric growth. There has 
got to be acceleration.
    So what prompted our movement to this approach is what we 
have learned over the last two years in having listening 
sessions with the Hispanic community, and what we discovered 
that was uppermost on their mind was, first of all, they needed 
more faculty development. They needed more support for 
students. They especially needed summer academies for students 
to ease the transition from high school to college, especially 
in math proficiency. As we listened to these challenges, what 
we discovered is, they are very much the same challenges that 
are being faced by Historically Black Colleges and Universities 
and also Tribal Colleges and Universities. So there was an 
opportunity to rethink how we approach this problem and to ask 
the question, are there advantages to be gained rather than 
looking at these, as you say, as a portfolio of institutions. 
And looking at it from the standpoint of, first of all, how you 
can share knowledge, how you can network knowledge, how you can 
develop the different kind of alliances, and also how you can 
leverage the program, both financially, intellectually and 
geographically.
    The opportunities for financial leveraging within the 
Foundation are quite substantial. In EHR [Education and Human 
Resources] alone, only 29 percent of the active awards to these 
three types of institutions come from the HBCU [Historically 
Black Colleges and Universities] and LSAMP [Louis Stokes 
Alliances for Minority Participation] programs. The majority of 
the awards come from a broad array of EHR programs. Also, if 
you look across the Foundation, the percentage of funding that 
goes to minority institutions from these programs is only 36 
percent of the total. The other 64 \1\ percent comes from other 
parts of the Foundation, including elsewhere within EHR as well 
as within the R&RA [Research & Related Activities] account. But 
then if you had a consolidated program, one would have to look 
at the leveraging opportunities with other agencies, with the 
private sector, with private foundations, with national 
laboratories, with other entities who would see this in a much 
more holistic light and would see the advantages of 
participating and supporting the program. So in positioning the 
program for growth, future growth and also with regard to 
getting the benefits of leveraging, we felt that a consolidated 
approach is far better than a fragmented approach. One could go 
on and talk about administrative costs, administration cost and 
efficiency of operation, but that is not the primary driving 
force.
---------------------------------------------------------------------------
    \1\ Originally stated incorrectly by Dr. Bement as 77 percent.
---------------------------------------------------------------------------
    We would like to propose, and this is in our planning at 
the present time--and since this is our development year, I am 
only supposed to talk conceptually. I can't really get into a 
large amount of detail at this point. But broadly speaking, we 
see four tracks in this program going forward. The first track 
we would call the Louis Stokes Model Alliances track, which is 
patterned after the LSAMP program. It would include intramural 
networks in collaborations for information-sharing, program 
assessment, and development of instructional materials and 
curricula involving community colleges, tribal colleges, early-
stage STEM programs that could benefit from institutions that 
have well-developed STEM programs, including majority 
institutions that also graduate substantial numbers of minority 
students in STEM. We envisage here that both MSIs and majority 
institutions could be the lead institution but we would use a 
collaborative grant approach so that we could put more money in 
the hands of the minority-serving institutions. In other words, 
grants would go to all institutions in the alliance, which is a 
departure from the way the programs work today. So in the case 
of MSIs, we would encourage MSIs to serve as lead institutions, 
but in the case of a non-MSI in a leadership position, we would 
require that at least two partners be MSIs as part of the 
alliance.
    The second track is transformational initiatives. This is 
focused primarily on capacity building to integrate education 
with research and other forms of activity-based learning in 
order to stimulate recruitment, retention, graduation success 
and to lower barriers at the various transition points. This 
would be also research-intensive. We would again expect that 
MSIs would be in a leadership position, or if not MSIs, 
institutions again with a proven track record of improving 
underrepresented minorities in STEM participation.
    The third track recognizes that there are cultural and 
contextual differences among different kinds of institutions, 
not only in terms of minority populations but also in terms of 
the type of institution, whether it is research or whether it 
is education only or whether it is a two-year university or 
whether it is a university that is incorporating indigenous 
knowledge with education, which is the case for many 
institutions. This track would focus on targeted initiatives in 
order to focus on those differences and also as a result 
develop strategies for continuous improvement for early-stage 
STEM program development and also growth at minority-serving 
two-year and four-year undergraduate colleges.
    The fourth track would be research. That would complement 
as well as supplement the other three tracks and it would focus 
in on overcoming specific barriers, such as math preparation or 
other areas that again are at the transition points, but it 
would also deal with grand challenges in broadening 
participation itself. In other words, what more can be done in 
order to leverage geographically and so forth. For example, the 
EPSCoR states have a significant number of minority-serving 
institutions. Are there strategic ways in which we could 
partner with the EPSCoR program in order to get further 
leverage in those states for building capacity and also 
providing connectivity of broadband and other needs that are 
necessary and essentially essential for education these days.
    So the only final points I would like to make is, first of 
all, we do understand in this program that there is a wide span 
of institutional types and we have to accommodate all these 
institutional types. We recognize that we need more development 
before this program can be launched, and we want to do this in 
a very transparent way, because we are seeking further 
suggestions and ideas from the communities at large. 
Furthermore, during the transition, recognizing that we have 
existing grants and some of those may be renewed, we see 
transitioning this program over a period of three to five 
years, so it is not a `step' function, it is a `ramp' function.
    And finally, we recognize that there are cultural and 
contextual differences that will have to be explored in the 
program, and in some cases, use them as opportunities. It is a 
two-way street. Many majority institutions can benefit from the 
mentoring experiences and the counseling experiences and the 
student support experiences that occur at Hispanic-Serving 
Institutions and Historically Black universities and colleges, 
and we want to be able to share that. So that is basically the 
outline of what we have in mind.
    Mr. Carnahan. Thank you, and Mr. Chairman, if I could just 
ask unanimous consent to ask him a 30-second question? I know 
that was a long answer, but just one point that----
    Chairman Lipinski. Go ahead.
    Mr. Carnahan. Thank you.
    Just real quickly, what about steps to help these colleges 
get the commercialization of their research? Are there are 
opportunities to help encourage and growth that capacity?
    Dr. Bement. Well, yes. Certainly at the two-year community 
colleges where a lot of training is done to prepare skilled 
technical personnel for industry, we would see opportunities 
for partnerships. As far as technology transfer, that is 
something we encourage in almost all of our programs, and 
again, by leveraging with other programs, we can add that 
component, especially our Partnerships for Innovation, which 
broadly addresses not only the fundamental issue of 
transferring technology but especially focused on broadening 
participation.
    Mr. Carnahan. Thank you very much.
    Thank you, Mr. Chairman.
    Chairman Lipinski. Thank you.
    Dr. Bement. Oh, I might also add, the I-cubed program, or 
Innovation for Institutional Integration, there are tracks in 
that program that would also be valuable to leverage.
    Chairman Lipinski. Thank you, Mr. Carnahan.
    The Chair now recognizes Ms. Johnson.
    Ms. Johnson. Thank you very much, Mr. Chairman, and let me 
apologize to both witnesses for being a little late getting 
here. We have a great ability to schedule most things at the 
same time.
    Dr. Beering, as you know, the National Science Foundation 
maintains dozens of programs which ultimately fulfill the 
mandate of the National Science Foundation, to support all 
fields of science and engineering, and all of these programs 
serve different purposes yet share one goal of enhancing 
American science. My question specifically is, what mechanisms 
are in place at the National Science Foundation to measure the 
individual effectiveness of these programs? Or perhaps Dr. 
Bement.
    Dr. Beering. I will ask Dr. Bement to enlarge upon that.
    Ms. Johnson. Sure.
    Dr. Bement. We have a number of mechanisms for continuous 
improvement and also for oversight, primarily being the 
National Science Board itself, but also within the Foundation 
we employ Committees of Visitors to evaluate each and every 
program at least every three years. We have Advisory Committees 
that give us a link to the community so that we can be 
connected with what their interests are, and also to advise the 
Foundation on new opportunities as well as some issues. We have 
committees that report to the Director, like CEOSE [Committee 
On Equal Opportunities in Science and Engineering], for 
example, and like GPRA [Government Performance and Results Act] 
committees, GPRA committee especially in looking at outcomes 
from our programs and determining whether the programs are 
viable.
    But in addition to that, we have working groups across the 
Foundation that represent the various directorates and offices 
that probe in depth issues and policies within the Foundation 
as well as oversight, and they provide continuing review of the 
effectiveness of these policies. And then finally, at the 
direction of the current Administration, we are establishing at 
the Foundation level an office of assessment and evaluation, 
program assessment and evaluation, and we are planning on 
linking that with our strategic planning as well as evaluating 
our progress against our goals and our plans. That is in the 
formative stage at the present time. It is still being 
conceptualized as well as being developed. But we have 
envisioned that that will be another tool that the senior 
management of the Foundation can draw on in order to assist not 
only in their program plans but also in their budget planning.
    Ms. Johnson. Thank you. As a follow-up, as you are aware, 
there are currently over 200 Hispanic-Serving Institutions and 
this number obviously is growing very fast and seemingly will 
continue. Combining the three existing broadening participation 
programs into a consolidated program along with an additional 
fourth that invites proposals from these institutions calls for 
increased funding. How do you propose that a $13 million or a 
14 percent increase of the overall funding for broadening 
participation programs really increased funding for every 
single one of these programs, each of which serves unique 
individual purposes?
    Dr. Bement. Well, thank you for that question. First of 
all, if I take the sum total, and here I am going back to 
fiscal 2009 data because those are the best data that we have, 
the total funding of HBCUs, HSIs, TCUs came to about $113.1 
million. That was from EHR \2\ sources. If we just take these 
focused programs that we are talking about under broadening 
participation, it totaled $87 million in 2009. That investment 
was highly leveraged across the Foundation, if you include 
Recovery Act funding in 2009 to a total of $312 million, so 
that is a substantial amount. Now, what we are proposing in 
this budget is $103 million, of which a small fraction will be 
used for administrative costs and those will be for networking, 
for developing a network, developing a database and developing 
services for the community. So you can compare that $103 
million, which is not yet fully leveraged, with the $87 million 
that was provided in 2009. Now, the program will be 
competitive. It will be openly competitive so that, you know, 
every institution will have an opportunity to compete. So the 
opportunity budget for everyone is $103 million. Now, there is 
no segmentation or limitation. There is no artificial barrier 
so that this is what makes it a much more holistic approach in 
what will we think encourage alliances and partnerships, which 
is what we are really trying to achieve.
---------------------------------------------------------------------------
    \2\ Orginally stated incorrectly by Dr. Bement as being from ``all 
sources''.
---------------------------------------------------------------------------
    Ms. Johnson. Thank you very much, Mr. Chairman.
    Chairman Lipinski. Thank you, Ms. Johnson.
    The Chair will now recognize himself for five minutes. and 
I am going to begin with a question for Dr. Bement but also if 
Dr. Beering has any comments on this, I would appreciate those 
also. Two weeks ago in this Subcommittee, we held a hearing on 
research infrastructure at American universities. During that 
hearing, witnesses testified about the billions of dollars in 
deferred maintenance and stalled plans for new research 
buildings. The NSF had a study that came out in 2007 from a 
2005 survey that said there is $3.6 billion in deferred 
maintenance for their research buildings. Now, I have concerns; 
how we can continue to compete with countries like China, who 
are pouring billions of their own into brand-new high-tech 
research facilities, when we are having trouble here with ours 
at worst crumbling, at best just falling behind? AAU 
[Association of American Universities] and APLU [Association of 
Public and Land-grant Universities] are now on record in favor 
of sustaining the Academic Research Infrastructure program, the 
ARI program, that received $200 million in the Recovery Act 
after not being funded for more than a decade. Now, NSF was not 
represented at this previous witness panel so I want to give 
you men a chance to respond now to calls to reauthorize the ARI 
program at NSF, and if not ARI, what else could be done to 
address this potentially serious concern that could impact 
America's standing in research into the future.
    Dr. Bement. Well, first of all, I understand the concern, 
and I have visited research facilities both here and abroad. I 
do that as a regular part of my work. And it is true that the 
rest of the world is catching up. The rest of the world is 
investing in infrastructure as well as research 
instrumentation, so it is much more competitive. My judgment is 
that we are in pretty good shape but we probably aren't as 
dominant as we have been in the past, and we do have an aging 
infrastructure, and the universities are stressed at the 
present time for resources because state funding has decreased, 
especially with the economic downturn, so I am very sympathetic 
with the issue.
    On the other hand, there are priorities within the 
Foundation that we haven't met that I believe are more 
important than being the funding source of last resort for 
bricks and mortar, and that is medium-scale instrumentation and 
equipment. It is improving our success rate, continuing to push 
our success rates up, especially in some programs where they 
are still quite low. It is increasing the grant size. Our grant 
sizes are no longer adequate to support research groups as they 
had been in the past. And also in some of our fellowships and 
traineeships, our costs of education allowances for 
universities are so far out of date that universities will no 
longer submit proposals for fellowships or traineeships or 
scholarships because they can't afford it. So those are still 
burning issues. I would say that ARI, although it does have 
some merit, comes under the category of choice, how you keep a 
program balanced, and my preference is to keep the research 
strong and allow the universities or expect the universities to 
find the resources necessary to make the usual improvements, 
not only in the existing infrastructure but also to operate and 
maintain--I should say resources for new infrastructure, but 
also to operate and maintain the existing infrastructure. That 
is my position.
    Chairman Lipinski. Is there any--you had brought this up. I 
sort of want to follow up with this. Is there any new thinking 
by either the Board or the Foundation of how to approach the 
gap in funding between very small and very large instruments 
and facilities?
    Dr. Bement. Well, I will defer to the Chairman because the 
answer is yes, but I want him to explain it.
    Dr. Beering. We have just created a new subcommittee which 
is going to evaluate that very closely, and as Dr. Bement said, 
we are not in dire straits yet. In fact, the infrastructure 
funding over the last seven years has been close to 30 percent, 
and I am very pleased that the universities have been helped by 
foundations and private donors and by businesses and industries 
in terms of partnering with NSF and other Federal agencies to 
keep is pointed in the right direction.
    Chairman Lipinski. The number that you had cited, the 30 
percent, my understanding is it was closer to 24 percent for 
infrastructure. Is it----
    Dr. Bement. Actually the real number in between. It is 
around 28 percent.
    Dr. Beering. 28 to 29.
    Chairman Lipinski. We will have to look more into that 
because the numbers that I have seen are not that high. It 
would be good if it is up there.
    I also wanted to follow up in terms of the survey. Since 
1986, NSF has been required by law to conduct a survey of the 
state of our science and engineering research facilities every 
two years and submit a report to Congress. As far as I know, 
the last report was published in 2007, based on the fiscal year 
2005 survey. I am told the survey was conducted last year as 
well, although I am not sure. I don't believe there was a 
survey conducted in 2007. But when do you expect the results of 
the 2009 survey to become available?
    Dr. Bement. Well, I have to refer to my experts. We will 
provide that for the record.\3\
---------------------------------------------------------------------------
    \3\ Follow up from the National Science Foundation: NSF conducts 
the Survey of Science and Engineering Research Facilities on a biennial 
basis. The FY 2007 survey data will be available upon the release of an 
InfoBrief by late-summer 2010. The FY 2009 survey data are expected to 
be released by early summer 2011.
---------------------------------------------------------------------------
    Chairman Lipinski. Okay, and it does concern me because as 
I said, the last report was based on the 2005 survey and it 
said $3.6 billion in deferred maintenance, and since we don't 
have another--don't have reports since then and we should have 
had at least one more report based on 2007 and we are still 
looking for the report, you will get me the information on the 
2009 survey. It concerns me that we are not getting the best 
bang for our buck out of our research funding without having 
the best infrastructure that we could have there, but we can 
follow up more on that later.
    With that, I have other questions but I will finish the 
first round here and I will yield to Dr. Ehlers for five 
minutes.
    Mr. Ehlers. Thank you, Mr. Chairman. I just have two fairly 
short questions, which probably require only short answers.
    But on the whole issue of the minority education, what you 
have outlined makes sense to me. Of course, I haven't seen all 
the details but I think it is a good approach. But the concern 
I have is you are going to have a 14 percent increase in the 
funding for these programs. How will that affect the other work 
of the division of Human Resource Development, the 
opportunities for women and persons with disabilities, which 
has a five percent decrease. How would you see that balancing 
out?
    Dr. Bement. That is a question, the detail of which I am 
not prepared to go into. Some of these small changes in budget 
depend pretty much on what the renewal is for a given year, how 
many awards have to be renewed and what the opportunity is for 
funding new awards. Perhaps I can get a better answer. No, I 
guess we will provide that also for the record.\4\
---------------------------------------------------------------------------
    \4\ Follow up from the National Science Foundation: The proposed 
new comprehensive broadening participation effort at the Foundation 
will include attention to issues of women and persons with disabilities 
in STEM. The five percent (or $1 million) decrease below the FY 2010 
Estimate in the current programs for research on women and persons with 
disabilities will allow for a basic research focus in those programs. 
Other aspects of those programs that have now reached critical mass 
(e.g., diffusion and extension service activities) will be one focus of 
planned program evaluation, so additional support through evaluation 
will be directed toward the programs. In the FY 2010 Estimate, 57 
percent of the Research on Gender in Science and Engineering (GSE) 
Program budget will be available to fund new awards and 34 percent of 
the Research in Disabilities Education (RDE) program budget will be 
available to fund new awards, with the amounts remaining in both 
programs funding to sustain existing awards.
---------------------------------------------------------------------------
    Mr. Ehlers. All right. Thank you, and I hope we can 
continue those programs to the extent that they are needed and 
they are certainly needed.
    No NSF budget hearing would be complete without a question 
about icebreakers and it has no connection with the 
boilermakers you mentioned earlier. Is everything copasetic 
now? Is the Coast Guard happy? Are you happy?
    Dr. Bement. Well, as far as our working relationship, I 
think we have a good relationship. We are still operating under 
a memorandum of understanding that we have negotiated. The 
problem is that we were mandated, and so was the Coast Guard, 
for that matter, to shift the funding from the National Science 
Foundation to the Department of Homeland Security for the 
operation and maintenance of the icebreakers, where the 
Foundation would then pay incremental costs for icebreaking 
services. Now, that didn't happen. Those funds were not in the 
budget for the Coast Guard in the 2011 budget, so in order to 
sustain our mission, we have had to again provide operations 
and maintenance costs out of the NSF budget. That is a default 
position which we regret but it is important.
    Mr. Ehlers. And how much money does that involve?
    Dr. Bement. It is about $52 million--$54 million.
    Mr. Ehlers. Well, that is considerably less than Homeland 
Security is going to spend for the new screening methodology, 
so there should be a little money there somewhere. I hope we 
can find that through the budget process.
    Thank you, and I yield back.
    Chairman Lipinski. Thank you, Dr. Ehlers.
    First one follow-up along the lines of the last 
questioning. When do you expect that the grants will be made 
for ARI under the Recovery Act program? Because I keep hearing 
that they are expected in the near future, and as far as I 
know, no grants have been made in that.
    Dr. Bement. I think all the proposals have been evaluated. 
I think the grants are imminent, probably this month. April 
through July.
    Chairman Lipinski. All right. Thank you.
    I wanted to move on to talking about high-risk, high-reward 
research. In 2007, at the same time this committee was 
developing the America COMPETES Act, the National Science Board 
released a report calling for NSF to establish a transformative 
research initiative. There are a few details in that report and 
in the Gathering Storm recommendations but there is an eight 
percent set-aside at each agency. Since then, the ARISE 
[Advancing Research in Science and Engineering] report has 
spelled out more detailed recommendations and NSF has 
experimented with different approaches to meeting this need. So 
first, Dr. Bement, can you elaborate on some of those 
approaches and give us an idea of what percentage of your total 
research budget is, and ideally, should be, dedicated to this 
effort on transformative research?
    Dr. Bement. This is a philosophical point because the focus 
on the Foundation has been that we pay much more attention to 
the frontiers of science and that we try to push the community 
closer to that frontier so that basically all the grants that 
we fund would be potentially transformative. It is very 
difficult to know at the onset whether it will actually be 
transformative until the research is carried out. But in terms 
of higher risk, higher risk was a priority in the use of our 
Recovery Act funds. We funded a number of programs that I have 
reviewed that are very exciting, are potentially 
transformative. But to get to your question, in the 2010 budget 
we have allocated $92 million across the Foundation, $2 million 
per division, and we are using this year as a development year 
to experiment on different approaches for supporting 
transformative research. In fact, my hope is that those in the 
community that feel that they can submit a proposal and reduce 
the risk in the proposal in order to get it past a review 
committee may get their proposal denied on the basis that it 
doesn't have enough risk. So this is the games that we play 
back and forth with the community with regard to risk.
    But there are three categories of innovations that we are 
currently looking at. One has to do with the review process 
itself, the merit review process, and the training we give not 
only to our program officers but also the reviewers, and what 
our expectation is, what our definition of transformative 
research is, which was developed by the Board. Now, the second 
has to do with incentivizing transformative research through 
venture funding, through other mechanisms to incentivize 
program officers to pick out those programs that are perhaps a 
little below the line but nevertheless are very exciting and 
very transformative and be able to fund them. The third has to 
do with other methodologies or modalities for not only the way 
we phrase our solicitations, but also how we do our workshops 
in order to identify areas that would be potentially 
transformative. So there are a number of different 
methodologies that are being explored by the various divisions 
at this point.
    So this is the activity that is currently going on. The 
question is or what is before us is actually putting in place a 
program evaluation of all these different approaches to see 
what their effectiveness is and what we can pull out as a best 
practice. And the best practices that are effective will be the 
ones that will be propagated across the Foundation in future 
years.
    Chairman Lipinski. As a result of the fiscal year 2006 
appropriations bill, the NSF engaged the National Academy of 
Sciences to study innovation inducement prizes. That NAS report 
recommended that NSF embrace the challenge and stated that 
innovation inducement prize contests will be a sound investment 
in strengthening the infrastructure for U.S. innovation. I 
agree with the NAS on this and I think that innovation 
inducement prizes not only support transformative research in a 
way that complements traditional NSF grant making, but they can 
increase public recognition of scientific and research 
accomplishments. Do either of you have any recommendations 
concerning a potential prize program?
    Dr. Bement. Obviously this has been on our plate for a long 
time. There are prizes that do make sense and prizes that don't 
make sense for the Foundation. The ones that do make sense are 
the ones that fit in with our mission and our purpose. We don't 
do systems engineering, we don't develop prototypes like a 
DARPA [Defense Advanced Research Projects Agency], for example. 
So there are some types of inducement prizes that deal with 
whole systems, like developing a single launch to space or 
developing a new solar car or something of that type, which 
doesn't really fit the NSF mission. On the other hand, there 
are a couple of ideas that we have been exploring that I think 
do make sense. Oh, by the way, we also have prizes in the 
Foundation. We have the Waterman prize, for example. We give 
Presidential medals, or we manage the Presidential medal 
program for science and for teachers and for mentors. But in 
terms of inducement, we have two criteria for our merit review 
process. One is scientific merit and the other is broadening 
participation. We argue that these criteria have equal weight, 
but on the one hand, we recognize achievement on the scientific 
merit side but we don't recognize achievement in broadening 
participation. I am sorry, and other impacts, broader impacts, 
the importance of that is, we need to recognize citizen 
scientists who make a contribution to society and are connected 
with society and the world, the so-called citizen scientists 
rather than just the scientists in the ivory tower. So a prize 
that would incentivize attention to broadening participation 
and give recognition for outstanding achievements in what is 
being done already in that category, I think would be very 
important. It would stimulate the community. It would also give 
tangible evidence that we do pay attention to broader impacts.
    The second area would be in innovation. It is very 
important that new concepts, and new knowledge transfer into 
the community broadly for economic development where possible 
and find their way into the marketplace. That is very much in 
our mission space. It is recognized in a number of programs 
that we support to not only exploit new concepts but also to 
provide talent, educated talent, through our graduate programs 
by integrating research with education. They eventually will go 
into the private sector and become the innovators and the 
entrepreneurs in our society.
    It occurs to me that if we had an innovation prize at the 
national level that would be based on competitions that are 
held internally with universities to pick the best concept 
where it is not just based on the scientific merit of the 
concept but would also have to identify how that concept would 
be transferred, how it would be launched and how it would be 
accelerated. So this is a prize that could also require 
matching funds from the private sector--at least those who 
would benefit from the transfer activity--or it could even be 
state loans or other forms of support so it would be a matched 
prize, and this could be a competition, for example, that would 
be adjudicated by the National Academy of Engineering. We would 
have to support that. In order for the universities to be 
interested in entering into this prize program, there would 
have to be a reward for the winning university that puts 
forward the concept. So the prize would not only--there would 
not only be a part of the prize that would go to the 
university, but there would be a major prize that would go to 
the entrepreneur or the innovator at the university that would 
be matched by private sector funding. That is the concept.
    Chairman Lipinski. Thank you, Dr. Bement.
    Anything else, Dr. Beering, on that or following up?
    Dr. Beering. Some years ago, I was privileged to chair the 
series of seminars and hearings around the Nation on K-12 
education, and out of that came our acquaintance with Secretary 
Chu now, who helped us with our energy symposium, and the 
education secretary, who was remarkable in our seminar in 
Chicago, and I think what it all comes down to is, we need to 
invest in people with ideas who have a passion for science and 
education and who are broadly engaged in their views, who have 
vision and who have the steadfastness to pursue that vision, 
and I am just delighted with the way we are doing right now. 
Things are really moving in a very productive direction and I 
am strengthened in that belief because of the marvelous staff 
that we have at NSF and the very imaginative work that is going 
on throughout the enterprise. I am very optimistic about the 
future, and I think we are going to continue to do well. Thank 
you very much for hearing us.
    Chairman Lipinski. That is an excellent way to conclude the 
hearing today, and I thank both of you again for your testimony 
and for your service to our country and to science.
    So with that, the record will remain open for two weeks for 
additional statements from Members and for answers to any 
follow-up questions the Committee may ask of the witnesses.
    With that, the witnesses are excused and the hearing is now 
adjourned.
    [Whereupon, at 11:37 a.m., the Subcommittee was adjourned.]


</pre></body></html>
